Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




NURSING HOME CORPORATIONS
  UNDER QUALITY OF CARE
   CORPORATE INTEGRITY
       AGREEMENTS




                    Daniel R. Levinson
                     Inspector General

                       April 2009
                     OEI-06-06-00570
                   Office of Inspector General
                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement
and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
E X E C U T I V E                       S U           M M A R Y
Δ    E X E C U T I V E                                    S U M M A R Y


                   OBJECTIVE
                   To review nursing home corporations under quality of care Corporate
                   Integrity Agreements (CIA) to:

                   1. determine the extent to which they implemented required quality of
                      care structures and processes,

                   2. determine their responsiveness to quality monitoring, and

                   3. describe challenges encountered when implementing the
                      requirements of their CIAs.


                   BACKGROUND
                   Under quality of care CIAs, nursing home corporations with identified
                   quality of care problems consent to certain requirements in exchange for
                   an agreement by the Department of Health and Human Services, Office
                   of Inspector General (OIG), not to exclude them from participation in
                   Federal health care programs. A nursing home quality of care CIA is a
                   contract that is typically entered into for 3 to 5 years and requires
                   implementation of quality of care structures and processes and
                   monitoring by an independent monitor.

                   This study examined the 15 nursing home corporations that began
                   quality of care CIAs between June 2000 and December 2005. To review
                   these corporations, we examined corporate documents and reports from
                   corporations and their quality monitors and interviewed corporate
                   representatives and monitors.


                   FINDINGS
                   All 15 corporations enhanced quality of care structures and
                   processes while under their CIAs and cited positive effects of the
                   CIAs. Each corporation had written policies and procedures regarding
                   quality of care, codes of conduct, and training required by their CIAs.
                   All 15 corporations monitored their quality of care by using
                   standardized data and internal self-assessment tools and by tracking
                   complaints. They all created or expanded their compliance
                   infrastructure to integrate quality of care. In interviews, corporate
                   representatives cited positive effects that the CIAs had on their
                   corporations.




 OEI-06-06-00570   N U R S I N G H O M E S C O R P O R AT I O N S U N D E R Q U A L I T Y   OF   C A R E C O R P O R AT E I N T E G R I T Y A G R E E M E N T S   i
E X E C U T I V E                       S U           M M A R Y


                   Despite some initial resistance from 3 corporations, all 15 were
                   ultimately responsive to their quality monitors’ guidance and
                   corporate representatives reported that they valued the input.
                   Quality monitors reported that 12 of the 15 corporations accepted and
                   acted on the monitors’ guidance from the start of their CIAs and that
                   3 initially resistant corporations became responsive (following OIG
                   intervention) while under the CIAs. Our review of quality monitoring
                   reports and corporate annual reports confirmed the monitors’ opinions
                   that the 15 corporations were largely responsive to the monitors’
                   guidance. Additionally, corporate representatives cited several benefits
                   of quality monitoring, e.g., monitors offered new ideas and fresh ways of
                   thinking about quality of care structures and processes.
                   Representatives of all 15 corporations described challenges
                   encountered when implementing CIA requirements. Corporations
                   with multiple nursing homes encountered challenges to ensuring
                   consistency in quality of care systems across all layers of their
                   organizations and across geographic regions. For example, an analysis of
                   Quality Assessment and Assurance (QAA) committee meeting minutes
                   indicated that nursing homes’ implementation of quality of care systems
                   was inconsistent. Other challenges involved organizational disruptions,
                   staff resistance to implementation, use of staff time to implement the
                   requirements of the CIAs, and financial costs associated with CIAs.
                   Inherent limitations of commonly used quality of care measures
                   prevented our assessment of the quality of care performance of
                   nursing homes under CIAs. We analyzed data from sources commonly
                   used by the Centers for Medicare and Medicaid Services, quality
                   monitors, and nursing home corporations as indicators of nursing home
                   quality. However, we could not use these data to adequately assess the
                   quality of care performance of nursing homes under CIAs because these
                   measures do not have established benchmarks that set standards for
                   what constitutes quality care.


                   CONCLUSION
                   All 15 corporations enhanced quality of care structures and processes to
                   meet the CIA requirements. Corporate representatives from each
                   corporation cited positive effects of their CIAs. Although all
                   corporations were ultimately responsive to their quality monitors’
                   guidance and valued their input, three corporations were initially
                   resistant until OIG intervened. All corporations faced challenges in


 OEI-06-06-00570   N U R S I N G H O M E C O R P O R AT I O N S U N D E R Q U A L I T Y   OF   C A R E C O R P O R AT E I N T E G R I T Y A G R E E M E N T S   ii
E X E C U T I V E                       S U           M M A R Y


                   implementing CIA requirements, such as difficulties in implementing
                   quality systems throughout all levels of the corporations, including
                   systems at the nursing home level. Based on these findings, areas that
                   OIG will explore for its oversight of future CIAs include the following:

                   •      Responding swiftly to noncompliant corporations and those that fail
                          to address quality problems by using available enforcement
                          remedies, such as monetary penalties or, if appropriate, exclusion
                          from Federal health care programs. Additionally, a provider’s
                          continued failure to address quality of care may warrant opening
                          new investigations by OIG.
                   •      Including specific requirements regarding documentation of nursing
                          home QAA committee activities to ensure that quality of care
                          monitoring and improvement systems are implemented at the
                          nursing home level.

                   •      Sharing lessons learned by corporations and quality monitors with
                          other corporations placed under subsequent CIAs.




 OEI-06-06-00570   N U R S I N G H O M E C O R P O R AT I O N S U N D E R Q U A L I T Y   OF   C A R E C O R P O R AT E I N T E G R I T Y A G R E E M E N T S   iii
Δ   T A B L E          O F           C O N T E N T S



          EXECUTIVE SUMMARY .................................... i



          INTRODUCTION............................................ 1



          FINDINGS.................................................. 8
                    All corporations enhanced quality of care structures and
                    processes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

                    All corporations were ultimately responsive to quality
                    monitors . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

                    All corporations cited challenges to implementing CIAs . . . . . . . . 13

                    Quality measures limitations prevented assessment of quality
                    of care performance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16



          C O N C L U S I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17



          A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
                    A: Nursing Home Corporations Included in This Review . . . . . . . 18

                    B: Quality Assessment and Assurance Committee
                       Methodology and Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

                    C: Quality Indicators/Quality Measures . . . . . . . . . . . . . . . . . . . . 24

                    D: State Survey Deficiencies Data by Corporation . . . . . . . . . . . . 40



          A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 43
Δ   I N T R O D U C T I O N



                  OBJECTIVE
                  To review nursing home corporations under quality of care Corporate
                  Integrity Agreements (CIA) to:

                  1. determine the extent to which they implemented required quality of
                     care structures and processes,

                  2. determine their responsiveness to quality monitoring, and

                  3. describe challenges encountered when implementing the
                     requirements of their CIAs.


                  BACKGROUND
                  Nursing home quality of care problems come to the attention of the
                  Department of Health and Human Services, Office of Inspector General
                  (OIG), through different avenues. For example, quality problems may
                  become apparent when allegations of poor patient care are brought
                  against providers under the False Claims Act. 1 Some quality of care
                  problems are brought to OIG’s attention through referrals from State
                  and local law enforcement agencies. Still others come to OIG’s attention
                  from other sources, such as media reports or Medicare and the OIG
                  hotline.

                  As part of the resolution of quality of care cases, OIG may agree not to
                  exclude a nursing home corporation from participation in Federal health
                  care programs if the corporation enters into a quality of care CIA with
                  OIG. 2 A quality of care CIA typically lasts 3 to 5 years and includes
                  requirements that the corporation:

                  •      contract with an independent quality monitor authorized by OIG
                         and provide the monitor with relatively unfettered access to
                         facilities, staff, residents, documents, and management at all levels
                         of the organization;

                  •      designate a compliance officer and appoint a corporate-level Quality
                         Assurance Committee to oversee clinical improvement and
                         compliance issues throughout the corporation;



                      1 31 U.S.C. §§ 3729–3733.
                      2 42 U.S.C. § 1320a-7 provides the authority for excluding entities from participation in
                  Medicare, Medicaid, and other Federal health care programs.



OEI-06-06-00570   N U R S I N G H O M E C O R P O R AT I O N S U N D E R Q U A L I T Y   OF   C A R E C O R P O R AT E I N T E G R I T Y A G R E E M E N T S   1
I N T R O D        U C T             I O N


                    •      implement internal monitoring of quality of care;

                    •      establish a confidential disclosure program, e.g., a hotline;

                    •      develop written standards, policies, and procedures;

                    •      screen to ensure that ineligible persons are not hired; 3

                    •      implement competency-based employee training programs; and

                    •      submit status reports to OIG and report certain events, e.g., serious
                           quality of care problems, to the quality monitor and OIG within
                           specific timeframes.

                    If the corporation fails to comply with the CIA, OIG may impose
                    monetary penalties or, in the case of a material breach by the
                    corporation, OIG may exclude one or more of the corporation’s nursing
                    homes from participation in Federal health care programs.
                    Nursing Home Quality of Care Corporate Integrity Agreements
                    The first nursing home quality of care CIA went into effect in
                    June 2000. By June 2008, 35 nursing home corporations had entered
                    into such agreements, 16 corporations under original CIAs and
                    19 corporations under “successor agreements.” A successor agreement
                    is initiated when a corporation under a CIA sells nursing homes, splits
                    into two or more corporations, or reorganizes to form a new corporation.
                    Nursing homes that are sold, or those that are under the newly formed
                    or reorganized corporation, are sometimes placed under successor
                    agreements to ensure that they fulfill the original CIA requirements.

                    This is the first review of nursing home corporations under CIAs since
                    OIG began entering into quality of care CIAs.




                      3 An “ineligible person” is any individual or entity who: (1) is currently excluded,
                    suspended, debarred, or otherwise ineligible to participate in the Federal health care
                    programs or (2) has been convicted of a criminal offense related to the provision of health
                    care items or services that falls within the ambit of 42 U.S.C. § 1320a-7(a) but has not yet
                    been excluded.



 OEI-06-06-00570    N U R S I N G H O M E C O R P O R AT I O N S U N D E R Q U A L I T Y   OF   C A R E C O R P O R AT E I N T E G R I T Y A G R E E M E N T S   2
I N T R O D        U C T             I O N


                    Quality of Care Structures and Processes
                    Quality of care CIAs include requirements about the structures and
                    processes of corporations related to quality of care.

                    •      Quality of care is “the degree to which health services for individuals
                           and populations increase the likelihood of desired health outcomes
                           and are consistent with current professional knowledge.” 4
                    •      Quality of care “structures” are the framework of policies and rules
                           within which the corporation arranges its lines of authority and
                           communication, division of labor, and formal powers that direct
                           organizational activities affecting quality of care.

                    •      Quality of care “processes” are the activities that take place within
                           these structures.

                    For example, a structural change to address quality of care problems in
                    a nursing home where residents have a higher than normal number of
                    falls may involve writing a new policy for fall prevention. The
                    associated process change would be the activities undertaken to
                    implement the new policy.
                    Quality Monitoring
                    In addition to undergoing monitoring by OIG, each corporation under a
                    quality of care CIA is required to contract and pay for the services of an
                    independent quality monitor, which is selected by OIG. 5 CIAs require
                    corporations to give monitors relatively unfettered access to nursing
                    home records and staff. Quality monitors set their own fees with the
                    corporations, and corporations pay for the monitors’ services. 6 OIG
                    expects that the monitors will work with the corporations so that the
                    corporations can learn to identify and resolve quality of care concerns.

                    Quality monitors employ a variety of strategies to identify quality of
                    care problems. They discuss quality of care issues with key personnel at


                      4 “Measuring the Quality of Health Care: A Statement of the National Roundtable on

                    Healthcare Quality Division of Healthcare Services,” National Academy Press, 1999.
                      5 Monitors are individuals or entities that OIG has determined have competency in key
                    areas, including knowledge and experience with long-term care quality, clinical practice,
                    data technology, data analysis, monitoring of quality of care, and general management.
                      6 Testimony of Lewis Morris, Office of Counsel to the Inspector General,
                    U.S. Department of Health and Human Services, to the U.S. House of Representatives
                    Committee on Energy and Commerce, Subcommittee on Oversight and Investigations.
                    May 15, 2008. Available online at
                    http://oig.hhs.gov/testimony/docs/2008/testimony051508.pdf. Accessed on June 20, 2008.



 OEI-06-06-00570    N U R S I N G H O M E C O R P O R AT I O N S U N D E R Q U A L I T Y   OF   C A R E C O R P O R AT E I N T E G R I T Y A G R E E M E N T S   3
                  the corporate level, conduct site visits to individual nursing homes,
                  review structures and processes related to the delivery of resident care,
                  and analyze relevant data. Monitors provide periodic reports to OIG
                  and the corporations with findings from their monitoring activities.
                  These reports include guidance for corporations presented as
                  recommendations, observations, or suggestions. The findings and
                  guidance reflect systemic issues noted by monitors rather than problems
                  encountered in each individual nursing home.

                  One indicator of whether systemic solutions are being applied at the
                  nursing home level is reflected in the individual nursing home’s Quality
                  Assessment and Assurance (QAA) committee activities. Federal
                  regulations require a QAA committee at each nursing home. 7 The
                  committee must meet at least once each quarter, and membership must
                  include the Director of Nursing Services, a physician, and at least three
                  other members of the nursing home’s staff. 8 The role of the QAA
                  committee in a nursing home includes identifying quality problems by
                  analyzing quality of care data, identifying the root causes of quality
                  problems, 9 developing and implementing action plans to correct quality
                  problems, monitoring the effect of implemented changes, and revising
                  the action plans if needed. 10
                  Quality of care CIAs have requirements that corporations appoint
                  Quality Assurance Committees at the corporate level but do not have
                  particular requirements for QAA committees in individual nursing
                  homes. However, the CIA quality monitors assess quality assurance
                  activities and review quality-assurance-related documents during site
                  visits to nursing homes under CIAs. Further, monitors consider QAA
                  committees as vehicles through which corporate-level quality of care




                    7 42 CFR § 483.75(o)(2)(i). Nursing homes sometimes refer to these committees as

                  “quality improvement committees,” “performance improvement committees,” and “quality
                  assurance committees.”
                      8 42 CFR § 483.75(o)(2)(i).
                      9 Often referred to as “root cause analysis,” a method for exploring underlying issues that
                  result in quality of care problems. U.S. Department of Veterans Affairs, National Center
                  for Patient Safety, Root Cause Analysis. Available online at
                  http://www.patientsafety.gov/rca.html. Accessed on June 20, 2008.
                      10 “State Operations Manual,” Appendix PP, “Interpretive Guidelines for Long Term
                  Care Nursing Homes,” guidance for 483.75(o). Available online at
                  http://cms.hhs.gov/manuals/Downloads/som107ap_pp_guidelines_ltcf.pdf.
                  Accessed on June 20, 2008.



OEI-06-06-00570   N U R S I N G H O M E C O R P O R AT I O N S U N D E R Q U A L I T Y   OF   C A R E C O R P O R AT E I N T E G R I T Y A G R E E M E N T S   4
I N T R O D        U C T             I O N


                    structures and processes can be integrated into care practices at the
                    nursing home level.


                    METHODOLOGY
                    Scope
                    This study examines the 15 nursing home corporations under quality of
                    care CIAs with start dates between June 2000 and December 2005.
                    These 15 were the only nursing home corporations that were under
                    quality of care CIAs for at least a year prior to December 2006, when we
                    began this review. Ten corporations were under their original CIAs and
                    five were under successor agreements. The 15 corporations collectively
                    operated 1,104 nursing homes nationwide as of December 31, 2006.
                    These included four corporations with 100 or more nursing homes, three
                    corporations with 10 to 99 nursing homes, four corporations with
                    2 to 9 nursing homes, and 4 individual nursing homes. Three of the
                    individual nursing homes were owned by parent corporations and one
                    was independently owned. Additional information about the
                    15 corporations is in Appendix A.
                    Data Collection and Analysis
                    Implementation of required quality of care structures and processes. To
                    determine the structures and processes that corporations had in place to
                    meet the CIA requirements, we reviewed documents from each of the
                    15 corporations. These included copies of organizational charts, policies
                    and procedures, codes of conduct, information publicizing corporations’
                    complaint hotlines, logs of complaints received, training materials and
                    training attendance logs, internal quality assessment instruments and
                    reports, and implementation and annual reports that corporations
                    submitted to OIG.

                    We also conducted structured interviews with representatives of
                    corporations, e.g., compliance officers and chief executive officers (CEO).
                    We inquired about corporate quality of care structures and processes;
                    the way in which the corporation addressed each of the requirements of
                    the CIA; and the corporation’s experiences under the CIA, including the
                    positive and negative aspects. We interviewed representatives of
                    corporations with 10 or more nursing homes in person and




 OEI-06-06-00570    N U R S I N G H O M E C O R P O R AT I O N S U N D E R Q U A L I T Y   OF   C A R E C O R P O R AT E I N T E G R I T Y A G R E E M E N T S   5
I N T R O D        U C T             I O N


                    representatives of corporations with 2 to 9 nursing homes and the
                    individual nursing homes by telephone. 11
                    Responsiveness to quality monitoring. To determine corporations’
                    responsiveness to quality monitoring, we used all 168 quality monitor
                    reports submitted to OIG, covering the period between June 2000 and
                    December 2006 (the end date for our document requests), by the
                    five entities that conducted quality monitoring for the 15 nursing home
                    corporations. We requested monitors’ protocols and conducted
                    structured interviews with each quality monitor by telephone. We
                    inquired about their monitoring activities and protocols and their
                    experiences with each corporation.
                    To assess corporations’ responsiveness to guidance provided by quality
                    monitors, we identified 611 recommendations, suggestions, or concerns
                    (hereinafter referred to as “guidance items”) that the five monitors
                    provided to corporations in the 168 quality monitor reports submitted to
                    OIG from June 2000 through December 2006. We then examined
                    subsequent reports issued by monitors and the corporations’ reports to
                    OIG to find evidence that the corporations responded to the quality
                    monitors’ guidance. We determined that the corporation was responsive
                    if there was evidence in a subsequent monitoring report or annual
                    report that the corporation had acted on the quality monitor’s guidance.
                    Follow-up information was available for 485 (79 percent) of the
                    611 guidance items identified. We had no subsequent monitoring or
                    annual reports to review for the other 126 guidance items and could not
                    assess corporate responsiveness to them. We based our findings on the
                    485 guidance items for which follow-up information was available.
                    Challenges encountered when implementing CIA requirements. In
                    conducting interviews, we included questions about challenges that
                    corporations encountered when implementing CIA requirements.

                    To assess the extent to which quality systems were consistently
                    implemented at the nursing home level of the corporation, we examined
                    the corporations’ use of quality assurance processes at that level. We
                    requested written minutes from QAA committee meetings for a random
                    sample of 407 nursing homes. We determined whether the minutes
                    documented that QAA committees met quarterly, as required, for each

                        11 We were not able to interview representatives from one corporation with two to nine

                    nursing homes because the CIA had expired and all individuals who had been involved were
                    no longer with the corporation.



 OEI-06-06-00570    N U R S I N G H O M E C O R P O R AT I O N S U N D E R Q U A L I T Y   OF   C A R E C O R P O R AT E I N T E G R I T Y A G R E E M E N T S   6
I N T R O D        U C T             I O N


                    quarter from July 2005 through December 2006. 12 We also determined
                    whether minutes reflected that nursing homes used data to identify
                    problems, conducted root cause analysis, developed action plans to
                    address identified problems, and followed up on those action plans.
                    Additional information about the QAA committee analysis is presented
                    in Appendix B.
                    Limitations
                    Our analysis of nursing home QAA committees relies on the written
                    minutes of meetings that corporations submitted to us. It is possible
                    that some QAA committees held meetings but did not document their
                    activities or that nursing homes did not retain the meeting minutes,
                    and we would not be aware of these meetings or the committees’
                    activities.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




                      12 We selected the most recent 18-month period because many nursing homes did not
                    have minutes available for a longer period of time.



 OEI-06-06-00570    N U R S I N G H O M E C O R P O R AT I O N S U N D E R Q U A L I T Y   OF   C A R E C O R P O R AT E I N T E G R I T Y A G R E E M E N T S   7
   F   I N D I N G        S
 Δ         F I N D I N G S


    All 15 corporations enhanced quality of care                 Each of the 15 corporations
                                                                 developed new, or improved
structures and processes while under their CIAs
                                                                 existing, quality of care structures
            and cited positive effects of the CIAs
                                                                 and processes as they implemented
                         the requirements of the CIA. For purposes of this review, we grouped
                         these structures and processes into three areas:
                         (1) written policies and procedures, codes of conduct, and training
                         related to quality of care; (2) tools and activities to monitor quality of
                         care; and (3) the organizations’ infrastructure related to quality of care.
                         The 15 corporations had written policies and procedures regarding quality
                         of care, codes of conduct, and training required by their CIAs
                         Corporate representatives reported that their organizations revised and
                         updated many policies and procedures to comply with the CIA
                         requirements and to align them with the nursing home compliance
                         program guidance issued by OIG in 2000. 13 As of January 2007, each
                         corporation had written policies and procedures that specifically
                         addressed quality of care issues. These materials contained information
                         relating to corporate structures, such as the QAA committee
                         membership and responsibilities. Other topics dealt with clinical
                         procedures, staff training, procedures for handling complaints, and
                         screening of employees or contractors to identify persons ineligible for
                         participation in Federal health care programs.

                         Each corporation also had a written code of conduct that described the
                         organization’s principles and values and set general expectations for all
                         employees. The levels of detail and presentation of the codes varied
                         across corporations, ranging from brief statements that fit on a single
                         sheet of paper to more detailed booklets. All corporations provided
                         codes of conduct to employees during orientation and training sessions,
                         as required by their CIAs.

                         Corporations also trained employees on the CIA requirements and
                         various aspects of providing coordinated interdisciplinary care to
                         residents. Corporations reported that they identified training needs
                         through their internal monitoring systems. Although each corporation
                         approached employee training differently, they all developed systems to
                         ensure that each employee took the required training when initially
                         hired and annually thereafter. Notably, staff from one corporation


                             13 65 Fed. Reg. 14289 (Mar. 16, 2000).




       OEI-06-06-00570   N U R S I N G H O M E C O R P O R AT I O N S U N D E R Q U A L I T Y   OF   C A R E C O R P O R AT E I N T E G R I T Y A G R E E M E N T S   8
F   I N D I N G        S


                      reported that an Internet-based training system developed to facilitate
                      and track training required by the CIA was eventually turned into a
                      separate product that it markets to other corporations and nursing
                      homes.
                      The 15 corporations monitored quality of care by using standardized data
                      and internal self-assessment tools and by tracking complaints
                      Each corporation had methods for identifying quality of care problems
                      and monitoring quality improvement progress. Some of these tools were
                      in use before the CIA, and each corporation either developed or adopted
                      additional assessment tools or expanded upon existing tools to meet the
                      CIA requirements.
                      Standardized data. Corporations reported that they routinely used
                      readily available, standardized data to monitor each nursing home’s
                      performance. For example, corporations used the Centers for Medicare
                      and Medicaid Services’ (CMS) Quality Indicators/Quality Measures
                      (QI/QM) to identify trends in specific care areas, such as pressure sores
                      and urinary tract infections. 14 The QI/QMs are 28 prevalence or
                      incidence measures derived from information recorded during periodic
                      assessments of residents performed by nursing home staff and
                      contained in the Minimum Data Set (MDS). 15
                      Corporations also used State survey deficiency citations to gauge
                      compliance with Federal standards. State survey deficiencies are
                      generated during surveys of each nursing home, which must be
                      conducted every 9 to 15 months. 16 CMS contracts with States to
                      conduct these surveys to verify whether nursing homes maintain
                      Federal quality of care standards. Corporations used these data to
                      identify recurring problems across nursing homes that would suggest
                      the need for systemic solutions and specific nursing homes or areas
                      needing targeted attention. Corporate compliance officers explained




                        14 The initial Quality Indicators were developed, under a contract with CMS, by the
                      Center for Health Systems Research and Analysis at the University of Wisconsin –
                      Madison. D. Zimmerman, “Improving nursing home quality of care through outcomes data:
                      the MDS quality indicators,” International Journal of Geriatric Psychiatry, Volume 18,
                      2003. They were later revised to include Quality Measures.
                        15 Section 1819(f)(6)(A) of the Social Security Act, added by the Omnibus Budget
                      Reconciliation Act of 1987, 42 CFR § 483.20(b-c), and CMS, “Resident Assessment
                      Instrument Version 2.0 Manual.”
                          16 Social Security Act §§ 1819 (g) and 1919(g).




    OEI-06-06-00570   N U R S I N G H O M E C O R P O R AT I O N S U N D E R Q U A L I T Y   OF   C A R E C O R P O R AT E I N T E G R I T Y A G R E E M E N T S   9
F   I N D I N G        S


                      how identified problems prompted the development of action plans to
                      address them.

                      Internal self-assessment tools. To supplement information from
                      standardized data, all 15 corporations developed their own
                      self-assessment tools or adapted existing tools used by others in the
                      nursing home industry. One type of self-assessment tool involved onsite
                      nursing home reviews, known as quality control reviews or mock
                      surveys, conducted by internal teams. The review results took various
                      forms, e.g., “scorecards,” and provided nursing home administrators and
                      other corporate employees with in-depth information about aspects of
                      quality of care.
                      Corporations also reported using satisfaction surveys, chart audits, and
                      staffing measures to monitor quality of care. Satisfaction surveys were
                      used to provide nursing homes with direct feedback from residents and
                      family members. Chart audits enabled homes to monitor compliance
                      with established resident care standards and guided training when staff
                      deviated from established care standards. Monitoring of each nursing
                      home’s staffing levels and turnover identified nursing homes with
                      insufficient staff to deliver quality care.

                      Complaints. Another form of internal monitoring used by corporations
                      was reviewing complaints from residents, family members, nursing
                      home staff, and others. All 15 corporations had some type of telephone
                      complaint “hotline” that satisfied the confidential disclosure program
                      requirement of the CIAs. All corporations also took steps to protect
                      caller confidentiality, such as removing identifiable information before
                      sending a record of the complaint to a nursing home’s administrator.
                      Corporate representatives described a variety of methods used to track
                      and follow up on complaints to ensure that issues were resolved. One of
                      the more elaborate examples involved a corporation whose vendor
                      uploads complaint information to a limited-access Internet Web site.
                      Each complainant is provided an access code to track the status and
                      eventual resolution of the complaint. In addition to tracking each
                      complaint, corporate staff use the tracking system to monitor the
                      number and nature of complaints lodged against each nursing home and
                      to identify recurring or widespread problems. Corporations also
                      received complaints through other mechanisms, including anonymous
                      complaint boxes at individual nursing homes and in-person complaints
                      made to social workers and other staff.



    OEI-06-06-00570   N U R S I N G H O M E C O R P O R AT I O N S U N D E R Q U A L I T Y   OF   C A R E C O R P O R AT E I N T E G R I T Y A G R E E M E N T S   10
F   I N D I N G        S




                      The 15 corporations created or expanded their compliance infrastructure to
                      integrate quality of care
                      Six corporations created new compliance programs that included quality
                      of care as part of the new programs’ responsibilities, including the four
                      new corporations that were formed when larger corporations under
                      CIAs reorganized. The other nine corporations expanded the scope of
                      their existing compliance programs. Representatives of these nine
                      corporations reported that prior to their CIAs, quality of care was
                      primarily within the purview of clinical operations and their compliance
                      departments generally focused on other aspects, such as financial
                      integrity. Because their CIAs explicitly identified quality of care as a
                      compliance issue, these corporations integrated quality of care into their
                      corporate compliance infrastructure.
                      As required by the CIA, each corporation had a compliance program led
                      by a designated compliance officer. All compliance officers whom we
                      interviewed expressed that they had sufficient authority and support to
                      perform their duties to address quality of care issues. Several also
                      explained that their approach to quality assurance was less a matter of
                      exerting authority than a process of collaborating with clinical
                      managers and others throughout their corporations.
                      Corporate representatives cited positive effects that the CIAs had on their
                      corporations
                      Corporate representatives from each corporation named at least one
                      positive effect that the CIA had on their corporations, and many named
                      more than one. The most frequently cited positive effect was that the
                      CIA helped guide the development of more standardized processes and
                      quality systems. It made the corporation examine itself and its systems
                      and track quality of care more closely. Corporate leaders indicated that
                      the CIAs helped them to focus the corporations’ attention on quality of
                      care and communicate to employees a clear message about its
                      importance. Some corporate representatives described the CIA as a
                      useful “hammer” or stated that it provided the “ammunition” needed to
                      make the necessary changes. Four corporations attributed
                      improvements in quality of care directly to implementation of the CIAs.
                      Additionally, a representative of one individual nursing home reported
                      that the nursing home now had a better standing in its community and
                      among local physicians because of CIA-related improvements.



    OEI-06-06-00570   N U R S I N G H O M E C O R P O R AT I O N S U N D E R Q U A L I T Y   OF   C A R E C O R P O R AT E I N T E G R I T Y A G R E E M E N T S   11
     F   I N D I N G        S




Despite some initial resistance from 3 corporations,                                                         Although 12 of the 15 corporations
   all 15 were ultimately responsive to their quality                                                        seemed to readily accept and act
 monitors’ guidance and corporate representatives                                                            on the quality monitors’ guidance,
                 reported that they valued the input                                                         monitors reported that the other
                           3 corporations were initially resistant to the added oversight. For
                           example, one monitor reported that the owners of an individual nursing
                           home tried to replace her. According to the monitor, after OIG refused
                           the nursing home’s request, the nursing home staff and owner began
                           working effectively with the monitor. The other two of these three
                           corporations delayed executing their quality monitor agreements. One
                           of the two refused to pay the quality monitor. Only when OIG issued a
                           demand letter for monetary penalties did the corporation comply. The
                           other corporation did not execute its agreement until 10 months after
                           the CIA went into effect. Also in this case, OIG had to levy a monetary
                           penalty to gain the corporation’s compliance. Both were under
                           successor agreements and OIG extended the end dates for the quality
                           monitoring because of the corporations’ delays. Quality monitors
                           reported that all three of these corporations eventually were cooperative
                           and responsive to guidance.
                           Guidance provided to the 15 corporations by the quality monitors,
                           presented as recommendations, suggestions, or concerns, often
                           identified specific areas needing improvement and suggested actions
                           that the corporations could take. Quality monitors’ reports most
                           frequently called for improvements related to resident assessments,
                           care planning, residents’ physical functioning (also referred to as
                           activities of daily living), skin care, nutrition/eating, and activities for
                           residents to engage in. Monitors most frequently recommended that
                           corporations conduct assessments or evaluations of the areas needing
                           improvement and/or conduct staff training on the topic. Monitors’
                           guidance also frequently stressed corporations’ implementation of a
                           system, program, or protocol to spur improvement; making better use of
                           the QAA process in individual nursing homes; and/or creating an action
                           plan.
                           Our review of quality monitoring reports and corporate annual reports
                           submitted to OIG confirmed the monitors’ opinions that corporations were
                           largely responsive to monitors’ guidance
                           We found that subsequent reports from the monitors and/or
                           corporations indicated that corporations had responded to 75 percent of

         OEI-06-06-00570   N U R S I N G H O M E C O R P O R AT I O N S U N D E R Q U A L I T Y   OF   C A R E C O R P O R AT E I N T E G R I T Y A G R E E M E N T S   12
F   I N D I N G        S


                      the 485 guidance items provided by monitors to the corporations in their
                      reports. Examples of corporate responses included developing corrective
                      action plans and implementing policy or practice changes. For another
                      18 percent of the guidance items provided by quality monitors, no
                      subsequent monitor or corporation reports mentioned the problems that
                      prompted the guidance. According to the monitors, this was an
                      indication that corporations had addressed or resolved the concerns.
                      However, for 6 percent of written guidance, quality monitors repeated
                      concerns or recommendations in subsequent reports, suggesting that
                      the corporations had not yet sufficiently responded to the original
                      guidance. 17
                      Corporate representatives cited several benefits of quality monitoring
                      Corporate representatives described the monitors as valuable experts
                      who brought in new ideas and fresh ways of thinking about quality of
                      care processes. Several representatives mentioned that their
                      corporations benefited from the monitors’ educational efforts to help
                      nursing home staff identify and address the root cause of problems.
                      Additionally, corporate representatives commented that the quality
                      monitors helped emphasize the importance of quality of care within the
                      organizations and helped garner support for quality improvement
                      initiatives that otherwise might not have been undertaken. Finally,
                      representatives expressed that the monitors provided a “second set of
                      eyes” that were focused on improving quality of care.



                                                   During interviews, corporate
Representatives of all 15 corporations
                                                   representatives identified several
   described challenges encountered                challenges to implementing the CIA
when implementing CIA requirements                 requirements. The most common
                      challenges identified were: ensuring consistency across their
                      organizations, organizational disruptions, staff resistance to
                      implementation, use of staff time to implement the requirements of the
                      CIAs, and financial costs.
                      Ensuring consistency. Corporations with multiple nursing homes
                      encountered challenges to ensuring consistency in quality of care
                      systems across all layers of their organizations and across geographic
                      regions. For example, each of the four corporations with more than


                          17 Percentages do not add to 100 percent because of rounding.




    OEI-06-06-00570   N U R S I N G H O M E C O R P O R AT I O N S U N D E R Q U A L I T Y   OF   C A R E C O R P O R AT E I N T E G R I T Y A G R E E M E N T S   13
F   I N D I N G        S


                      100 nursing homes was structured with multiple organizational levels
                      between corporate headquarters and its nursing homes. For these
                      organizations, new quality of care systems and policies developed in
                      headquarters often had to be implemented at district and regional levels
                      before finally reaching local nursing homes. Corporate representatives
                      and quality monitors reported that it was a challenge to ensure that
                      systems and policies were consistently passed through each
                      organizational level and to all nursing homes. Representatives from
                      four corporations with fewer than 100 nursing homes reported that the
                      geographic dispersion of the corporations’ nursing homes created a
                      similar impediment to ensuring consistency.
                      Further, our analysis of individual nursing home QAA committee
                      meeting minutes indicated that nursing home implementation of quality
                      of care processes was inconsistent. QAA committee meeting minutes
                      suggest that not all nursing homes’ committees met at least once per
                      quarter, as required. Specifically, six corporations provided us with
                      meeting minutes for less than half of the quarters reviewed and for only
                      some portion of their nursing homes. 18 Further, meeting documentation
                      did not support that the committees always identified or addressed
                      quality of care problems. For example, seven corporations had nursing
                      homes with no documentation that they had followed up on their action
                      plans. Finally, across the nursing homes of all corporations, we found
                      little documentation confirming efforts to identify the root cause of
                      problems, which leaves open the possibility that action plans developed
                      by QAA committees might address only the symptoms of problems and
                      not the underlying causes. For statistics about QAA committee
                      meetings for each corporation, see Appendix B.

                      The lack of consistent documentation could indicate inattention to
                      required QAA processes and inconsistency among nursing homes in
                      implementing corporate-level quality improvements. However, the
                      absence of QAA meeting minutes or documentation of specific
                      committee activities does not always mean that the committees did not
                      meet, as required by regulation, or did not undertake activities such as
                      developing corrective action plans. Alternatively, nursing homes may


                         18 We did not obtain any QAA committee meeting minutes from two additional
                      corporations, but that does not necessarily indicate that the committees did not meet.
                      Rather, one of the two corporations had been sold by the time of our data request, and the
                      other corporation had hired a new management team that reported not having access to
                      prior QAA committee meeting minutes.



    OEI-06-06-00570   N U R S I N G H O M E C O R P O R AT I O N S U N D E R Q U A L I T Y   OF   C A R E C O R P O R AT E I N T E G R I T Y A G R E E M E N T S   14
F   I N D I N G        S


                      have performed these activities but not have documented the meetings
                      or retained the minutes.

                      Organizational disruptions. Another reported challenge was that
                      corporations experienced disruptions because of changes to their
                      organizations after the CIAs began. For example, 4 of the 15
                      corporations were formed as new companies when larger corporations
                      split or sold nursing homes, and the new corporations were placed
                      under successor agreement CIAs. These corporations had to design and
                      implement quality of care systems to meet requirements of the CIAs as
                      they grappled with establishing new companies. Other disruptions
                      occurred when corporations purchased or sold nursing homes,
                      restructured their organizations, or had significant changes in
                      management.
                      Staff resistance. Corporate representatives reported challenges
                      involving staff resistance to the CIAs, and noted that these sometimes
                      required making personnel changes. For example, representatives of
                      one corporation reported replacing a nursing home administrator who,
                      rather than implementing new procedures, stored new corporate
                      procedural manuals in her personal car because she did not agree that
                      changes were needed. Several corporate representatives described key
                      personnel changes made during the CIAs, including replacing a CEO, a
                      compliance officer, and a president of a nursing home division; two
                      corporations replaced all of their corporate officers. Another corporation
                      described high turnover and recruiting difficulties encountered because
                      it was under the CIA. Representatives of this corporation perceived
                      that the CIA created a stigma that may have deterred potential
                      applicants from seeking employment with the corporation or its nursing
                      homes.

                      Staff time. Another challenge reported by corporate representatives was
                      the time required to implement the CIA requirements. Implementation
                      required staff to spend time on activities outside their regular duties.
                      These activities included implementing quality systems, developing new
                      policies and procedures, tracking quality outcomes, and attending
                      training sessions. Corporate representatives reported that these
                      activities, while beneficial, also diverted staff from providing resident
                      care.

                      Financial costs. Several corporate representatives reported that they
                      were challenged by the financial costs associated with the CIA.
                      Specifically, although they recognized certain benefits of quality

    OEI-06-06-00570   N U R S I N G H O M E C O R P O R AT I O N S U N D E R Q U A L I T Y   OF   C A R E C O R P O R AT E I N T E G R I T Y A G R E E M E N T S   15
    F   I N D I N G        S


                          monitoring, they also expressed that the money spent to hire the
                          monitors could have been spent for other purposes related to quality
                          improvement, such as increasing staff or improving facilities.



    Inherent limitations of commonly used              We initially sought to assess nursing home
   quality of care measures prevented our              quality of care performance by analyzing
                                                       data from two sources: QI/QMs and State
         assessment of the quality of care
                                                       survey deficiencies. Although neither
performance of nursing homes under CIAs
                                                       QI/QMs nor State survey deficiency data
                          were designed as a measure of quality, CIA quality monitors, CMS, and
                          nursing home corporations commonly use them as indicators of nursing
                          home quality. 19 However, we could not use these data to determine the
                          quality of care performance of nursing homes under CIAs because these
                          measures lack established benchmarks that set standards for what
                          constitutes quality care. For example, there is no agreement within the
                          nursing home industry as to what would be an acceptable level of the
                          incidence of cognitive impairment, which is measured by one of the QIs.
                          Although we do not utilize available data to draw conclusions about the
                          quality of care performance of nursing homes under CIAs, we do provide
                          basic QI/QM and State survey deficiency data for the reader. See
                          Appendixes C and D for these data from 1999 through 2007.




                            19 For example, CMS’s Nursing Home Compare Web site contains information about
                          Quality Measures, a variant of the QI that data we used, and State survey deficiencies for
                          each nursing home in the country. Available online at:
                          http://www.medicare.gov/NHCompare/Static/Related/DataCollection.asp?dest=NAV|Home|
                          DataDetails|DataCollection#TabTop. Accessed on November 21, 2008.



        OEI-06-06-00570   N U R S I N G H O M E C O R P O R AT I O N S U N D E R Q U A L I T Y   OF   C A R E C O R P O R AT E I N T E G R I T Y A G R E E M E N T S   16
Δ
E X   C O UN TC I L V UE S IS OU N
      E C                        M M A R Y




                    CIAs are entered into to improve quality of care in nursing homes by
                    imposing certain requirements to build the corporations’ and their
                    nursing homes’ internal quality assurance capabilities. The
                    CIA-covered entities must develop, improve, and sustain their internal
                    capacity to monitor their own quality and take corrective actions where
                    indicated. We found that each of the 15 corporations enhanced quality
                    of care structures and processes to meet the CIA requirements. Each
                    corporation had written policies and procedures, codes of conduct, and
                    training as required by the CIA; used tools and performed activities to
                    monitor quality of care; and created or expanded its compliance
                    infrastructure to integrate quality of care. Corporate representatives
                    from all corporations cited positive effects of their CIAs.

                    Although all corporations were ultimately responsive to their quality
                    monitors’ guidance and valued their input, three corporations were
                    initially resistant until OIG intervened. All corporations faced
                    challenges in implementing CIA requirements, such as difficulties in
                    implementing quality systems throughout all levels of the corporations,
                    including systems at the nursing home level. Additionally, we found
                    that lack of agreed-upon benchmarks for quality of care outcome
                    measures throughout the nursing home industry limited our ability to
                    assess the quality of care performance of nursing homes under CIAs.
                    Based on our findings, areas that OIG will explore for its oversight of
                    future CIAs include the following:

                    •      Responding swiftly to noncompliant corporations and those that fail
                           to address quality problems by using available enforcement
                           remedies, such as monetary penalties, or, if appropriate, exclusion
                           from Federal health care programs. Additionally, a provider’s
                           continued failure to address quality of care may warrant opening
                           new investigations by OIG.

                    •      Including specific requirements regarding documentation of nursing
                           home QAA committee activities to ensure that quality of care
                           monitoring and improvement systems are implemented at the
                           nursing home level.

                    •      Sharing lessons learned by corporations and quality monitors with
                           other corporations placed under subsequent CIAs.




  OEI-06-06-00570   N U R S I N G H O M E C O R P O R AT I O N S U N D E R Q U A L I T Y   OF   C A R E C O R P O R AT E I N T E G R I T Y A G R E E M E N T S   17
Δ   A P P E N D I X ~ A

                  NURSING HOME CORPORATIONS INCLUDED IN THIS REVIEW
                  This study examined the 15 nursing home corporations that entered
                  into quality of care Corporate Integrity Agreements (CIA) between
                  June 2000 and December 2005. Table 1 provides information on the
                  corporation size and start and end dates of the CIAs and indicates
                  whether each was an original CIA or a successor agreement.



                    Table 1: Corporations Under Quality of Care CIAs

                    Corporation Size                                         CIA Start Date                         CIA End Date                               Type of CIA
                    100 or more nursing homes                                   April 1, 2001                          April 1, 2006                           Original CIA
                    100 or more nursing homes                          February 28, 2002                     February 28, 2007                                 Original CIA
                    100 or more nursing homes                                   April 2, 2002                          April 2, 2007            Successor Agreement
                    100 or more nursing homes                                   April 1, 2004                          April 1, 2007                           Original CIA
                    10 to 99 nursing homes                                      April 2, 2002                          April 2, 2007            Successor Agreement
                    10 to 99 nursing homes                            September 9, 2003                     September 9, 2008                   Successor Agreement
                    10 to 99 nursing homes                             November 1, 2003                          October 1, 2005                Successor Agreement
                    2 to 9 nursing homes                                        June 9, 2000                          June 9, 2005                             Original CIA
                    2 to 9 nursing homes                                      March 1, 2002                         March 7, 2005                              Original CIA
                    2 to 9 nursing homes                              September 9, 2003                     September 9, 2008                   Successor Agreement
                    2 to 9 nursing homes                             November 22, 2004                     November 22, 2009                                   Original CIA
                    Individual nursing home                              October 29, 2001                      October 29, 2006                                Original CIA
                    Individual nursing home                          December 21, 2001                     November 15, 2005                                   Original CIA
                    Individual nursing home                          December 13, 2002                     December 13, 2005                                   Original CIA
                    Individual nursing home                              October 25, 2005                      October 25, 2008                                Original CIA
                    Source: Office of Inspector General, 2008.




OEI-06-06-00570   N U R S I N G H O M E C O R P O R AT I O N S U N D E R Q U A L I T Y   OF   C A R E C O R P O R AT E I N T E G R I T Y A G R E E M E N T S       18
Δ      A P P E N D I X ~ B

                  QUALITY ASSESSMENT AND ASSURANCE COMMITTEE
                  METHODOLOGY AND RESULTS
                  Table 2 provides information on the nursing homes’ Quality Assessment
                  and Assurance (QAA) committee meeting minutes’ sample sizes and
                  response rates. We requested minutes for all nursing homes from
                  corporations with two to nine homes and the four individual nursing
                  homes. We randomly selected a sample of nursing homes from
                  corporations with 10 or more nursing homes. We received at least some
                  QAA committee minutes for 350 of the sample of 407 nursing homes
                  that we requested to send minutes, representing an overall response
                  rate of 86 percent. Response rates by corporation ranged from 0 to 100
                  percent. Two corporations were unable to provide minutes because
                  their nursing homes were under new ownership and the meeting
                  minutes were no longer accessible.

                  Results of analyses of QAA minutes are presented in Tables 3 and 4.

                    Table 2: QAA Committee Meeting Minutes Request and Response
                    Rates
                                                                                         Number of
                                                                                Nursing Home                              Number of
                                                                                              Minutes              Nursing Home
                                                                                         Requested                            Minutes
                    Corporation Size                                             (Sample Size)                              Received               Response Rate
                    More than 100 nursing homes                                                       72                                62                     86%
                    More than 100 nursing homes                                                       58                                57                     98%
                    More than 100 nursing homes                                                       65                                65                     100%
                    More than 100 nursing homes                                                       77                                77                     100%
                    10 to 99 nursing homes                                                            34                                13                     38%
                    10 to 99 nursing homes                                                            43                                41                     95%
                    10 to 99 nursing homes                                                            21                                17                     81%
                    2 to 9 nursing homes                                                                8                                 0                     0%
                    2 to 9 nursing homes                                                                9                                 9                    100%
                    2 to 9 nursing homes                                                                9                                 0                     0%
                    2 to 9 nursing homes                                                                7                                 5                    71%
                    Individual nursing home                                                             1                                 1                    100%
                    Individual nursing home                                                             1                                 1                    100%
                    Individual nursing home                                                             1                                 1                    100%
                    Individual nursing home                                                             1                                 1                    100%
                         Total                                                                      407                               350                      86%
                    Source: Office of Inspector General, 2008.




OEI-06-06-00570   N U R S I N G H O M E C O R P O R AT I O N S U N D E R Q U A L I T Y   OF   C A R E C O R P O R AT E I N T E G R I T Y A G R E E M E N T S    19
A   P    P E N D               I X ~       B


                                               RESULTS OF NURSING HOME QUALITY ASSESSMENT AND ASSURANCE ANALYSIS
        Table 3: CIA Nursing Homes’ QAA Committee Meeting Minutes Point Estimates and Confidence Intervals for Corporations With 10 or More Nursing
        Homes*
                                                                                                         100 or more nursing homes                                                                                              10 to 99 nursing homes*
                                                Corporation A                                 Corporation B                                    Corporation C                                  Corporation D           Corporation F              Corporation G
                                                                 95-Percent                                   95-Percent                                          95-Percent                           95-Percent                95-Percent
                                                                                                                                                                                                                                                  Percentage Found in
                                                                Confidence                                    Confidence                                         Confidence                            Confidence                Confidence
                                                                                                                                                                                                                                                            Sample**
                                               Estimate                Interval            Estimate                   Interval             Estimate                     Interval            Estimate      Interval   Estimate       Interval
        CIA Corporation Documented Meeting Frequency

        All required quarters                      46%           35%-57%                        60%           50%-70%                           68%              58%-77%                      90%      83%-96%         48%       37%-58%                         71%

        At least half of required
                                                   28%           18%-38%                        11%             4%-17%                          29%              20%-38%                      10%       4%-17%         43%       32%-53%                         12%
        quarters but not all
        Less than half of required
                                                   26%           16%-36%                        30%            20%-39%                            3%           0%-11%***                       0%      **0%-5%         10%        3%-17%                         18%
        quarters

        CIA Corporation Documented Data Use To Monitor Performance

        Consistent data use                        36%           25%-47%                        51%           41%-61%                           60%               50%-70%                     69%      60%-78%         30%       20%-40%                         59%

        Inconsistent data use                      64%           53%-75%                        42%           32%-52%                           40%               30%-50%                     30%      21%-39%         60%       49%-71%                         24%

        No data use                                  0%          0%-6%***                       12%             2%-17%                            0%             0%-6%***                      1%      0%-7%***        10%        3%-17%                         18%

        CIA Corporation Documented Use of Root-Cause Analysis

        Consistent use                               2%          0%-9%***                         0%          0%-6%***                            9%                3%-15%                    35%      25%-45%          5%        0%-10%                         0%

        Inconsistent use                           57%           46%-68%                        30%           20%-39%                           38%               29%-48%                     51%      41%-61%         38%       27%-48%                         24%

        No use                                     41%           30%-52%                        70%           61%-80%                           52%               42%-62%                     14%       7%-21%         58%       47%-68%                         76%
        *Confidence intervals were calculated only for corporations with 10 or more nursing homes because their estimates are based on samples. We did not include one corporation with 10 to 99 nursing homes in the analysis of the
        content of the meeting minutes because the corporation provided minutes for only 38 percent of its nursing homes.
        **We did not compute confidence intervals for this corporation because it had fewer than 20 nursing homes in its population and sample.
        ***Confidence interval calculated with an exact method based on the binomial distribution.


        Source: Office of Inspector General analysis of 350 QAA committee meeting minutes for nursing home corporations under Corporate Integrity Agreements.




                   OEI-06-06-00570             N U R S I N G H O M E C O R P O R AT I O N S U N D E R Q U A L I T Y   OF   C A R E C O R P O R AT E I N T E G R I T Y A G R E E M E N T S         20
A P P E N D                   I X ~ B




Table 3 (continued): CIA Nursing Homes’ QAA Committee Meeting Minutes Point Estimates and Confidence Intervals for Corporations With 10 or
More Nursing Homes*
                                                                                             100 or more nursing homes                                                                               10 to 99 nursing homes
                                       Corporation A                             Corporation B                                 Corporation C                      Corporation D            Corporation F             Corporation G
                                                      95-Percent                                  95-Percent                                    95-Percent                  95-Percent                95-Percent
                                                                                                                                                                                                                      Percentage Found in
                                                     Confidence                                   Confidence                                    Confidence                  Confidence               Confidence
                                                                                                                                                                                                                                Sample**
                                     Estimate            Interval              Estimate                 Interval             Estimate                 Interval   Estimate      Interval   Estimate       Interval
CIA Corporation Documented Action Plans

Consistent action plan                   39%          28%-50%                       39%           29%-49%                         51%           41%-61%            65%      55%-75%         40%      29%-51%                         24%

Inconsistent action plan                 57%          46%-68%                       54%           44%-65%                         48%           38%-58%            35%      25%-45%         43%      32%-53%                         41%


No action plan                            3%         0%-11%***                        7%            2%-12%                          2%         0%-8%***             0%      0%-5%***        18%       9%-26%                         35%

CIA Corporation Documented Followup to Action Plans

Consistent followup                      10%           3%-17%                         9%            3%-16%                        34%           25%-44%            55%      45%-65%         30%      18%-43%                         0%

Inconsistent followup                    76%          66%-86%                       77%           68%-86%                         45%           35%-55%            42%      32%-51%         58%      44%-71%                         73%

No followup                              14%           6%-21%                       13%             6%-21%                        20%           12%-29%             4%      0%-8%***        12%       3%-21%                         27%
*Confidence intervals were calculated only for corporations with 10 or more nursing homes because their estimates are based on samples. We did not include one corporation with 10 to 99 nursing homes in the analysis of the
content of the meeting minutes because the corporation provided minutes for only 38 percent of its nursing homes.
**We did not compute confidence intervals for this corporation because it had fewer than 20 nursing homes in its population and sample.
***Confidence interval calculated with an exact method based on the binomial distribution.
Source: Office of Inspector General analysis of 350 QAA committee meeting minutes for nursing home corporations under Corporate Integrity Agreements.




         OEI-06-06-00570              QUALITY   OF   CARE   IN   N U R S I N G H O M E S U N D E R C O R P O R AT E I N T E G R I T Y A G R E E M E N T S              21
A P P E N D                  I X ~ B




Table 4: CIA Nursing Homes QAA Committee Meeting Minutes Analyses for Corporations With Nine or Fewer Nursing Homes*

                                                  2 to 9 nursing homes                                                                                                 Individual nursing home
                                      Corporation I                           Corporation K                                 Corporation L                       Corporation M           Corporation N       Corporation O
CIA Corporation Documented Meeting Frequency

All required quarters                                       6                                               1                                             1                     1                       0                    0

At least half of required
quarters but not all                                        2                                               4                                             0                     0                       1                    1

Less than half of required
quarters                                                    1                                               0                                             0                     0                       0                    0

CIA Corporation Documented Data Use To Monitor Performance

Consistent data use                                         2                                               4                                             0                     1                       1                    1

Inconsistent data use                                       7                                               1                                             1                     0                       0                    0

No data use                                                 0                                               0                                             0                     0                       0                    0

CIA Corporation Documented Use of Root-Cause Analysis

Consistent use                                              0                                               0                                             0                     0                       0                    1

Inconsistent use                                            4                                               1                                             0                     1                       1                    0

No use                                                      5                                               4                                             1                     0                       0                    0
*Corporations with nine or fewer nursing homes are based on population outcomes. We did not include 2 of the 15 corporations (both with nine or fewer nursing homes) in any analysis of QAA meeting minutes because all nursing
homes of 1 corporation had been sold by the time of our data request and another corporation had engaged a new management team that, reportedly, did not have access to prior QAA committee meeting minutes.
Source: Office of Inspector General analysis of 350 QAA committee meeting minutes for nursing home corporations under Corporate Integrity Agreements.




              OEI-06-06-00570             QUALITY   OF   CARE   IN   N U R S I N G H O M E S U N D E R C O R P O R AT E I N T E G R I T Y A G R E E M E N T S           22
A P P E N D                 I X ~ B




 Table 4 (continued): CIA Corporation QAA Committee Meeting Minutes Analyses for Corporations With Nine or Fewer Nursing Homes*

                                                   2 to 9 nursing homes                                                                                                 Individual nursing home
                                       Corporation I                           Corporation K                                 Corporation L                       Corporation M           Corporation N       Corporation O
 CIA Corporation Documented Action Plans

 Consistent action plan                                      8                                               2                                             1                     1                       1                    1

 Inconsistent action plan                                    1                                               3                                             0                     0                       0                    0


 No action plan                                              0                                               0                                             0                     0                       0                    0

 CIA Corporation Documented Followup to Action Plans

 Consistent followup                                         7                                               2                                             0                     1                       0                    1

 Inconsistent followup                                       2                                               2                                             1                     0                       1                    0

 No followup                                                 0                                               1                                             0                     0                       0                    0
 *Corporations with nine or fewer nursing homes are based on population outcomes. We did not include 2 of the 15 corporations (both with nine or fewer nursing homes) in any analysis of QAA meeting minutes because all nursing
 homes of 1 corporation had been sold by the time of our data request and another corporation had engaged a new management team that, reportedly, did not have access to prior QAA committee meeting minutes.
 Source: Office of Inspector General analysis of 350 QAA committee meeting minutes for nursing home corporations under Corporate Integrity Agreements.




               OEI-06-06-00570             QUALITY   OF   CARE   IN   N U R S I N G H O M E S U N D E R C O R P O R AT E I N T E G R I T Y A G R E E M E N T S           23
      Δ          A P P E N D I X ~ C



                              QUALITY INDICATORS/QUALITY MEASURES
                              A number of measures are used as indicators of quality of care in
                              nursing homes. One prominent measure is the Quality
                              Indicators/Quality Measures (QI/QM) developed by the Center for
                              Health Systems Research and Analysis (CHSRA) at the University of
                              Wisconsin – Madison. 20
                              The QI/QMs are incidence or prevalence measures derived from
                              information recorded during periodic assessments of residents
                              performed by nursing home staff and contained in the Minimum Data
                              Set (MDS). 21 Information from these assessments is aggregated to the
                              nursing home level for each QI/QM. The QI/QMs cover areas of care,
                              such as accidents, behavioral and emotional patterns, quality of life, and
                              skin care. Each QI/QM is calculated quarterly and represents the
                              percentage of residents in the nursing home who meet the criteria for
                              each specific condition.

                              These nursing home level indicators can be compared to previous
                              indicators for the same nursing home, other nursing homes, or the
                              population of nursing homes. A higher percentage on a QI/QM for a
                              particular nursing home, compared to that of other homes or its own
                              prior performance, indicates a possible need for attention to the area of
                              care measured by the QI/QM. Table 5 lists the 26 QI/QMs analyzed
                              and describes how they are calculated.



Table 5: Quality Indicators/Quality Measures
Quality Indicator/Quality Measure        Calculation
Incidence of new fractures               Residents with new fractures on target assessment divided by residents who did not
                                         have fractures on prior assessment.
Prevalence of falls                      Residents who had falls within the past 30 days divided by residents assessed.
Residents who have become more           Residents whose Mood Scale scores are greater on target assessment relative to prior
anxious or depressed                     assessment divided by residents with target assessment and prior assessment.
Prevalence of behavioral symptoms        Residents who have displayed any type of problem behavior toward others on target
affecting others                         assessment divided by residents assessed.
Prevalence of symptoms of depression     Residents with symptoms of depression and no antidepressant therapy on target
without antidepressant therapy           assessment divided by residents assessed.




                                 20 D. Zimmerman, “Improving nursing home quality of care through outcomes data: the

                              MDS quality indicators,” International Journal of Geriatric Psychiatry, Volume 18, 2003.
                                 21 Section 1819(f)(6)(A) of the Social Security Act, added by the Omnibus Budget
                              Reconciliation Act of 1987, 42 CFR § 483.20(b-c), and CMS, “Resident Assessment
                              Instrument Version 2.0 Manual.”



        OEI-06-06-00570       QUALITY   OF   CARE   IN   N U R S I N G H O M E S U N D E R C O R P O R AT E I N T E G R I T Y A G R E E M E N T S   24
A   P   P E N D             I X ~         C




Table 5: Quality Indicators/Quality Measures (continued)
Quality Indicator/Quality Measure                Calculation
Use of nine or more different                    Residents who received nine or more different medications on target assessment
medications                                      divided by residents assessed.
Incidence of cognitive impairment                Residents who are cognitively impaired on the target assessment divided by residents
                                                 who were not cognitively impaired on previous assessment.
Low-risk residents who lost control of           Low-risk residents who were incontinent or frequently incontinent of either bladder or
their bowels or bladder                          bowel on the target assessment divided by all residents assessed who did not qualify as
                                                 high risk.
Residents who have/had a catheter                Residents with indwelling catheters on target assessment divided by residents
inserted and left in their bladder               assessed.
Prevalence of occasional or frequent             Residents with no scheduled toileting plan and no bladder-retraining program on target
bladder or bowel incontinence without a          assessment and with occasional or frequent bladder or bowel incontinence divided by
toileting plan                                   residents assessed.
Prevalence of fecal impaction                    Residents with fecal impaction on most recent assessment divided by residents
                                                 assessed.
Residents with a urinary tract infection         Residents with urinary tract infections on target assessment divided by residents
                                                 assessed.
Residents who lose too much weight               Residents who have experienced weight loss of 5 percent or more during the last
                                                 30 days or 10 percent or more during the last 6 months divided by residents assessed.
Prevalence of tube feeding                       Residents with tube feeding on most recent assessment divided by residents assessed.
Prevalence of dehydration                        Residents with dehydration on most recent assessment divided by residents assessed.
Residents who have moderate to                   Residents with moderate pain at least daily or horrible/excruciating pain at any frequency
severe pain                                      on target assessment divided by residents assessed.
Residents whose need for help with               Residents with late-loss activities of daily living self-performance at target assessment
daily activities has increased                   worsening relative to prior assessment divided by residents with a target and prior
                                                 assessment.
Residents who spend most of their time           Residents who are bedfast on target assessment divided by residents assessed.
in a bed or in a chair
Residents whose ability to move in and           Residents whose value for locomotion self-performance is greater at target relative to
around their rooms got worse                     prior assessment divided by residents with a target assessment and prior assessment.
Incidence of decline in range of motion          Residents with increased functional limitation in ROM between prior and target
(ROM)                                            assessments divided by residents with a target assessment and prior assessment.
Prevalence of antipsychotic use, in the          Residents receiving antipsychotics divided by residents assessed without psychotic or
absence of psychotic conditions                  related conditions.
Prevalence of antianxiety/hypnotic drug          Residents who received antianxiety medications or hypnotics divided by residents
use                                              assessed, except those with psychotic or related conditions.
Prevalence of hypnotic use more than             Residents who received hypnotics more than two times in the last week divided by
two times in the last week                       residents assessed.
Residents who were physically                    Residents who were physically restrained daily divided by residents assessed.
restrained
Prevalence of little or no activity              Residents with little or no activity divided by residents assessed.
Pressure ulcers                                  Residents with pressure ulcers (stages 1–4) divided by all residents.
Source: Center for Health Systems Research and Analysis




         OEI-06-06-00570              QUALITY   OF   CARE   IN   N U R S I N G H O M E S U N D E R C O R P O R AT E I N T E G R I T Y A G R E E M E N T S   25
A P P E N D        I X        ~ C


                   Analysis of QI/QM data. Our data consisted of QI/QM scores for each
                   quarter from January 1999 through December 2007. We obtained
                   QI/QM data from CHSRA. We computed the means, standard
                   deviations, and medians for each QI/QM by year for the national
                   population from 1999 through 2007. We also computed the means for
                   each QI/QM by year for each of the 15 corporations included in our
                   review. These results are presented in Table 6.




 OEI-06-06-00570   QUALITY   OF   CARE   IN   N U R S I N G H O M E S U N D E R C O R P O R AT E I N T E G R I T Y A G R E E M E N T S   26
  A   P     P E N D           I X      ~          C


 Table 6: Quality Indicator/Quality Measure Annual Four-Quarter Average for 15 Corporate Integrity
 Agreement Corporations and National Population*

                                                  Accidents: Incidence of New Fractures

                                           1999            2000              2001                2002                2003               2004                2005         2006          2007
National Population Average                 1.8             1.7                 1.6                 1.6                 1.6                1.5                    1.5      1.5           1.5
Standard Deviation                          3.7             3.0                 3.0                 3.1                 2.8                2.8                    2.5      2.6           2.4
Median                                      1.2             1.2                 1.2                 1.2                 1.2                1.0                    1.1      1.1           1.1
Number of Nursing Homes                17,370          17,214              17,011             16,763              16,558              16,346             16,196         16,026        15,964
                                                                          CIA Corporations
                       Number of
CIA Start    Term of     Nursing
Quarter          CIA      Homes            1999            2000              2001                2002                2003               2004                2005         2006          2007
Q2 2001      5 Years        251             1.8             1.6               1.6                 1.6                 1.6                1.4                  1.5          1.5          1.4
Q1 2002      5 Years        138             1.6             1.7               1.6                 1.6                 1.6                1.5                  1.5          1.6          1.6
Q2 2002      5 Years        185             1.8             1.8               2.1                 1.9                 1.7                1.6                  1.6          1.7          1.7
Q2 2004      3 Years        341             1.7             1.8                 1.8                 1.7                1.7                 1.6                    1.6      1.5           1.5
Q2 2002      5 Years          52            1.4             1.6                 1.4                 1.4                1.4                 1.3                    1.4      1.4           1.4
Q3 2003      5 Years          74            1.5             1.4                 1.4                 1.4                1.3                 1.2                    1.1      1.3           1.3
Q4 2003      2 Years          26            2.0             2.3                 2.1                 2.5                2.0                 1.7                    1.9      1.9           1.7
Q2 2000      5 Years           8            1.3             1.7                 0.4                 5.1                0.8                 0.9                    1.0      1.6           1.8
Q1 2002      3 Years           9            1.2             1.2                 1.8                 1.1                1.1                 1.4                    1.1      0.9           1.0
Q3 2003      5 Years           9            2.0             2.1                 1.4                 1.0                1.2                 1.4                    1.4      1.4           1.8
Q4 2004      5 Years           7            2.2             1.7                 1.7                 1.9                1.3                1. 9                    1.5      2.0           2.3
Q4 2001      5 Years           1            0.2             3.4                 2.0                 2.2                0.5                 0.3                    0.3      1.2           2.3
Q4 2001      4 Years           1            2.3             2.1                 3.2                 2.1                3.3                 0.5                    1.4      1.3           1.2
Q4 2002      3 Years           1            1.9             1.8                 2.1                 1.0                1.9                 1.0                    1.5      2.4           1.1
Q4 2005      3 Years           1            1.6             0.3                 1.6                 0.9                0.9                 0.2                    2.1      0.5           1.3
                                                           Accidents: Prevalence of Falls

                                           1999            2000              2001                2002                2003               2004                2005         2006          2007
National Population Average                14.0            13.5               13.4                13.3                13.2               12.4                12.7         12.9          12.9
Standard Deviation                          9.8             9.6                 9.0                 8.5                 8.2                7.8                    7.9      7.7           7.6
Median                                     13.0            12.7               12.5                12.5                12.5               11.8                12.0         12.3          12.3
Number of Nursing Homes                17,370          17,214              17,011             16,763              16,558              16,346             16,196         16,026        15,964
                                                                          CIA Corporations
                        Number of
CIA Start     Term of     Nursing
Quarter            CIA     Homes         1999        2000         2001        2002        2003        2004        2005                                                   2006          2007
Q2 2001       5 Years        251         14.8         14.6        14.2         14.1        13.5        13.0        13.5                                                   13.8         13.5
Q1 2002       5 Years        138         14.1         13.5        13.4         13.4        13.6        12.4        12.0                                                   13.2         13.4
Q2 2002       5 Years        185         12.9         12.9        13.4         13.7        13.6        13.0        13.2                                                   13.6         13.7
Q2 2004       3 Years        341         14.2         14.1        14.2         14.2        13.8        12.8        13.5                                                   14.0         14.0
Q2 2002       5 Years          52        10.2          9.9         9.0          9.6         9.9         9.0         9.2                                                   10.1          9.2
Q3 2003       5 Years          74        12.8         12.7        12.3         12.1        11.7        11.1        11.1                                                   11.2         11.1
Q4 2003       2 Years          26        14.2         13.3        13.8         13.1        12.8        12.1        12.6                                                   13.1         12.0
Q2 2000       5 Years           8        21.8         31.2        19.1          7.4         8.5         5.9         5.0                                                    5.9          7.4
Q1 2002       3 Years           9        11.5         10.8        10.5         10.6        10.9        10.4        10.9                                                   10.2         11.2
Q3 2003       5 Years           9        14.6         13.3        12.2         13.1        12.9        10.2        10.4                                                   10.7         11.0
Q4 2004       5 Years           7        15.5        14.0         11.9        12.5         13.7        12.3        15.5                                                  16.3          12.2
Q4 2001       5 Years           1         4.5          8.2        13.0         14.3        14.8        13.5        11.8                                                  11.5          16.7
Q4 2001       4 Years           1        15.3          8.4        18.7         15.4        18.0        17.0         5.1                                                   6.0           6.6
Q4 2002       3 Years           1        14.4         20.5        15.1         14.0        15.0        17.5        14.9                                                  16.1          13.0
Q4 2005       3 Years           1        10.2          8.2         8.0          9.7        14.1        10.1        13.6                                                  14.6          19.2
*Corporate Integrity Agreements (CIA); shaded areas indicate the years during which the corporation was under the CIA.




                  OEI-06-06-00570          QUALITY    OF   CARE   IN   N U R S I N G H O M E S U N D E R C O R P O R AT E I N T E G R I T Y A G R E E M E N T S                  27
    A       P   P E N D         I X     ~      C


 Table 6 (continued): Quality Indicator/Quality Measure Annual Four-Quarter Averages for 15 Corporate
 Integrity Agreement Corporations and National Population

                  Behavior/Emotional Patterns: Residents Who Have Become More Anxious or Depressed

                                       1999            2000              2001                2002                2003               2004                2005         2006          2007
National Population Average             16.5           14.5               14.3                14.5                14.7               14.6                14.7         14.7          14.6
Standard Deviation                      10.7            9.9                 9.6                 9.7                 9.8                9.9                    9.9      9.9           9.9
Median                                  15.0           13.0               12.8                12.0                13.1               12.8                13.0         13.0          12.8
Number of Nursing Homes               17,370       17,214              17,011             16,763              16,558              16,346             16,196         16,026        15,964
                                                                      CIA Corporations
                          Number of
CIA Start       Term of     Nursing
Quarter            CIA       Homes     1999            2000              2001                2002                2003               2004                2005         2006          2007
Q2 2001         5 Years        251     18.4            16.3              16.2                16.0                15.6               15.6                 16.4         17.0         15.7
Q1 2002         5 Years        138     16.2            14.2              12.6                15.5                15.4               15.0                 15.0         16.3         15.8
Q2 2002         5 Years        185     15.2            14.3              14.7                14.2                15.1               16.4                 17.0         16.9         21.2
Q2 2004         3 Years        341     17.9            15.1              15.6                16.8                17.7               22.1                 21.5         22.2         22.1
Q2 2002         5 Years          52    15.0            13.4              13.2                13.2                14.1               15.3                 15.6         13.0         11.8
Q3 2003         5 Years          74    15.1            12.7              13.0                13.7                13.7               13.2                 13.9         13.7         14.0
Q4 2003         2 Years          26    16.4            15.3              14.5                16.3                13.2               12.7                 11.7         12.6         11.7
Q2 2000         5 Years           8    19.3            21.3              21.9                12.2                14.2               13.3                 10.9         10.1         11.4
Q1 2002         3 Years           9    11.7            12.6               9.0                11.0                 7.1                6.0                  5.3          6.8          5.8
Q3 2003         5 Years           9    19.9            20.1              16.3                17.9                16.6               12.7                 13.2         19.0         19.8
Q4 2004         5 Years           7    11.6             9.3                6.5                 5.9                 8.1                7.3                11.1          8.6         11.0
Q4 2001         5 Years           1    11.5            12.1               12.9                11.5                23.9               21.7                 5.6         12.6         20.3
Q4 2001         4 Years           1    17.6            11.9               13.8                12.5                15.3               15.0                13.5         14.0         15.9
Q4 2002         3 Years           1    11.0            14.3               17.0                10.3                 9.5                8.5                12.0         11.3          8.1
Q4 2005         3 Years           1    18.4            16.9                8.8                 7.4                 7.8                8.4                 6.9          7.9         10.1

                      Behavior/Emotional Patterns: Prevalence of Behavior Symptoms Affecting Others

                                       1999            2000              2001                2002                2003               2004                2005         2006          2007
National Population Average             23.0           21.9               21.0                20.4                19.7               19.5                18.7         18.0          17.6
Standard Deviation                      14.5           14.0               13.7                13.6                13.4               13.5                13.5         13.1          13.1
Median                                  20.8           19.8               18.6                17.9                17.2               16.9                16.0         15.3          14.8
Number of Nursing Homes               17,370       17,214              17,011             16,763              16,558              16,346             16,196         16,026        15,964
                                                                      CIA Corporations
                          Number of
CIA Start       Term of     Nursing
Quarter            CIA       Homes     1999            2000              2001                2002                2003               2004                2005         2006          2007
Q2 2001         5 Years        251     21.7            21.7              20.9                20.2                19.7               18.6                 17.8         17.7         17.0
Q1 2002         5 Years        138     25.0            24.3              21.9                22.3                22.7               21.4                 20.2         19.2         18.1
Q2 2002         5 Years        185     19.2            17.9              16.6                15.6                14.1               15.1                 13.9         12.8         12.9
Q2 2004         3 Years        341     22.4            21.0              20.2                19.5                18.7               19.9                 17.2         16.1         15.8
Q2 2002         5 Years          52    17.5            16.8              15.6                14.2                13.3               13.9                 12.4         10.8         11.4
Q3 2003         5 Years          74    21.6            21.6              20.3                20.4                19.0               19.2                 19.1         18.2         17.5
Q4 2003         2 Years          26    13.8            14.6              14.4                14.4                12.0               11.4                 10.7         11.8         10.6
Q2 2000         5 Years           8    16.2            21.7              15.4                16.4                15.0               13.8                 11.7         12.4         11.4
Q1 2002         3 Years           9    20.5            17.2              15.1                14.2                14.7               11.8                 10.0          7.8          7.0
Q3 2003         5 Years           9    19.6            21.2              21.5                22.0                19.4               13.8                 12.0         13.5         14.2
Q4 2004         5 Years           7    32.4            29.6               29.9                28.1               24.8                23.0                27.2        29.3          30.9
Q4 2001         5 Years           1    19.7            10.1               10.6                27.5               24.7                19.3                 8.7        10.7          21.3
Q4 2001         4 Years           1    18.2            17.1               17.3                20.2               25.4                32.0                24.6        24.3          22.8
Q4 2002         3 Years           1    15.9            24.6               26.1                19.0               10.1                 7.6                14.3        14.4          13.7
Q4 2005         3 Years           1    11.8            19.6               19.1                18.8               19.5                23.1                15.7        19.4          20.8




                   OEI-06-06-00570      QUALITY   OF   CARE   IN   N U R S I N G H O M E S U N D E R C O R P O R AT E I N T E G R I T Y A G R E E M E N T S                  28
A    P   P E N D         I X       ~       C


    Table 6 (continued): Quality Indicator/Quality Measure Annual Four-Quarter Averages for 15 Corporate
    Integrity Agreement Corporations and National Population

         Behavior/Emotional Patterns: Prevalence of Symptoms of Depression Without Antidepressant Therapy

                                        1999            2000              2001                2002                2003               2004                2005         2006          2007
National Population Average               7.9            6.8                 6.1                 5.6                 5.5                5.2                    5.2      4.9           4.7
Standard Deviation                        9.2            8.2                 7.6                 6.8                 6.8                6.7                    6.8      6.4           6.2
Median                                    5.4            4.5                 4.0                 3.7                 3.6                3.2                    3.2      2.9           2.8
Number of Nursing Homes                17,370       17,214              17,011             16,763              16,558              16,346             16,196         16,026        15,964
                                                                       CIA Corporations
                       Number of
CIA Start    Term of     Nursing
Quarter         CIA       Homes         1999            2000              2001                2002                2003               2004                2005         2006          2007
Q2 2001      5 Years        251          8.1             7.0               6.2                 5.7                 5.5                4.8                  4.7          4.6          4.2
Q1 2002      5 Years        138          8.0             6.1               5.1                 5.8                 5.6                5.3                  5.3          5.2          5.1
Q2 2002      5 Years        185          4.4             3.7               3.7                 3.2                 2.9                3.1                  3.2          2.8          4.0
Q2 2004      3 Years        341          7.0             5.9               5.2                 4.3                 4.3                5.5                  5.7          5.4          5.3
Q2 2002      5 Years          52         4.7             3.8               3.1                 2.3                 2.1                2.1                  2.5          2.5          2.0
Q3 2003      5 Years          74         6.3             5.7               5.3                 5.3                 5.4                5.6                  5.5          4.5          4.6
Q4 2003      2 Years          26         3.7             3.2               3.3                 3.1                 2.2                2.1                  1.7          1.9          2.1
Q2 2000      5 Years           8         7.9            11.6              10.7                 6.1                 6.9                4.1                  2.6          3.0          3.6
Q1 2002      3 Years           9        10.0             4.2               4.5                 2.6                 2.3                1.2                  1.5          1.8          1.9
Q3 2003      5 Years           9         7.9             9.1               6.9                 7.1                 5.6                3.1                  3.6          4.6          3.6
Q4 2004      5 Years           7          9.1            8.1                 6.9                 5.9                6.3                2.6                     2.9      4.2           6.5
Q4 2001      5 Years           1          2.7            2.9                 8.6                 5.6               13.8               23.1                     3.7      7.3           3.2
Q4 2001      4 Years           1         10.3           13.7                 9.8                 6.2                5.6                3.4                     2.5      0.9           3.0
Q4 2002      3 Years           1          1.7            2.8                 3.2                 4.0                2.5                2.5                     6.4      4.0           5.0
Q4 2005      3 Years           1          0.9            0.6                 1.8                 0.7                0.0                0.0                     0.5      0.2           0.0

                               Clinical Management: Use of Nine or More Different Medications

                                        1999            2000              2001                2002                2003               2004                2005         2006          2007
National Population Average              39.3           42.3               46.4                50.6                54.4               58.6                61.9         64.2          66.1
Standard Deviation                       16.6           16.0               15.7                15.4                14.8               14.5                13.9         13.3          13.0
Median                                   37.9           41.4               45.8                50.0                54.5               59.0                62.5         65.0          67.0
Number of Nursing Homes                17,370       17,214              17,011             16,763              16,558              16,346             16,196         16,026        15,964
                                                                       CIA Corporations
                       Number of
CIA Start    Term of     Nursing
Quarter         CIA       Homes         1999            2000              2001                2002                2003               2004                2005         2006          2007
Q2 2001      5 Years        251         36.1            39.7              44.4                49.1                53.6               57.9                 61.3         64.2         66.1
Q1 2002      5 Years        138         33.9            38.1              42.4                46.5                50.4               54.9                 58.8         61.7         63.8
Q2 2002      5 Years        185         37.0            40.5              44.8                49.2                53.9               59.4                 62.9         62.5         62.6
Q2 2004      3 Years        341         38.7            42.0              45.9                49.6                53.2               57.4                 60.9         63.4         65.8
Q2 2002      5 Years          52        34.0            37.2              40.5                44.3                49.1               54.9                 59.1         61.5         63.4
Q3 2003      5 Years          74        38.3            40.1              45.4                49.1                53.5               58.3                 63.5         65.8         67.6
Q4 2003      2 Years          26        40.5            45.0              48.1                52.5                58.1               61.9                 64.9         66.3         67.6
Q2 2000      5 Years           8        39.4            45.5              39.3                38.2                39.1               40.0                 48.0         56.0         54.5
Q1 2002      3 Years           9        36.8            39.7              43.0                48.2                51.3               51.5                 58.8         62.0         65.8
Q3 2003      5 Years           9        49.8            50.0              53.5                59.7                63.8               68.3                 70.1         72.7         72.4
Q4 2004      5 Years           7        26.0            31.2               33.8                39.4               43.3                50.2                48.6        54.0          52.3
Q4 2001      5 Years           1        43.5            44.8               57.9                60.1               59.4                62.9                67.0        72.8          71.3
Q4 2001      4 Years           1        51.5            58.8               53.5                59.4               65.3                70.0                68.9        69.5          70.4
Q4 2002      3 Years           1        34.8            37.8               45.8                48.2               51.5                54.8                64.2        60.5          64.9
Q4 2005      3 Years           1        46.0            46.4               48.7                44.9               50.8                57.1                67.2        69.7          71.0




                 OEI-06-06-00570         QUALITY   OF   CARE   IN   N U R S I N G H O M E S U N D E R C O R P O R AT E I N T E G R I T Y A G R E E M E N T S                  29
A    P   P E N D         I X       ~       C


    Table 6 (continued): Quality Indicator/Quality Measure Annual Four-Quarter Averages for 15 Corporate
    Integrity Agreement Corporations and National Population

                                   Cognitive Patterns: Incidence of Cognitive Impairment

                                        1999            2000              2001                2002                2003               2004                2005         2006          2007
National Population Average              11.6           11.4               11.6                11.7                11.7               11.5                12.0         12.1          12.0
Standard Deviation                       12.5           12.1               12.3                12.4                12.4               12.9                13.3         13.2          13.1
Median                                    9.1            9.1                 9.1                 9.1                 9.1                8.7                    9.1      9.1           9.1
Number of Nursing Homes                17,370       17,214              17,011             16,763              16,558              16,346             16,196         16,026        15,964
                                                                       CIA Corporations
                       Number of
CIA Start    Term of     Nursing
Quarter         CIA       Homes         1999            2000              2001                2002                2003               2004                2005         2006          2007
Q2 2001      5 Years        251         14.4            14.0              13.5                12.6                12.8               12.6                 12.1         13.0         12.3
Q1 2002      5 Years        138         10.9            10.5              11.0                12.7                12.0               12.8                 12.2         12.9         13.6
Q2 2002      5 Years        185         16.5            15.4              16.5                16.8                16.4               16.3                 16.9         15.7         15.1
Q2 2004      3 Years        341         12.6            13.5              14.9                14.7                15.1               14.3                 14.0         14.3         15.6
Q2 2002      5 Years          52        13.1            13.7              12.9                16.9                14.9               14.8                 14.7         13.6         15.2
Q3 2003      5 Years          74        12.1            11.6              12.1                11.5                11.0               10.5                 11.3         11.6         12.0
Q4 2003      2 Years          26        11.4            15.2              14.6                14.5                14.4               13.8                 13.9         12.0         12.6
Q2 2000      5 Years           8        16.9            12.4              19.6                13.6                12.2               16.6                 12.6          9.1          6.7
Q1 2002      3 Years           9        14.6             7.8               8.4                 9.9                 7.3                6.2                  7.1         10.1          5.8
Q3 2003      5 Years           9        10.9            10.4              10.9                11.5                13.9               15.3                 10.7         13.7         13.8
Q4 2004      5 Years           7          4.5            3.4                2.2                 7.8                 5.2                5.9                 7.9          9.2         10.0
Q4 2001      5 Years           1          7.2           13.0               18.7                12.7                 3.6                5.9                 5.5         15.6          8.2
Q4 2001      4 Years           1         10.4            5.7               18.4                 6.6                18.7               11.4                10.1         11.0         15.1
Q4 2002      3 Years           1         12.4            8.2               10.5                 8.6                 7.4                4.9                 5.4          4.0          6.5
Q4 2005      3 Years           1          6.1            7.8                8.6                 5.5                 7.9                5.9                 7.3         10.9         11.3

             Elimination/Incontinence: Low-Risk Residents Who Lost Control of Their Bowels or Bladders

                                        1999            2000              2001                2002                2003               2004                2005         2006          2007
National Population Average              42.4           43.6               44.5                45.0                45.6               47.8                47.9         47.8          48.5
Standard Deviation                       17.0           16.7               16.6                16.7                16.7               16.8                16.9         16.7          16.7
Median                                   42.6           43.8               44.8                45.3                45.9               48.2                48.2         48.3          49.1
Number of Nursing Homes                17,370       17,214              17,011             16,763              16,558              16,346             16,196         16,026        15,964
                                                                       CIA Corporations
                       Number of
CIA Start    Term of     Nursing
Quarter         CIA       Homes         1999            2000              2001                2002                2003               2004                2005         2006          2007
Q2 2001      5 Years        251         45.0            47.2              47.8                47.7                47.7               50.6                 50.2         50.0         51.2
Q1 2002      5 Years        138         40.1            42.3              42.6                44.2                44.8               48.3                 49.0         48.8         48.3
Q2 2002      5 Years        185         42.7            44.1              44.6                45.1                45.6               49.2                 50.7         51.1         58.1
Q2 2004      3 Years        341         44.4            45.5              47.2                47.4                47.8               51.9                 54.3         52.9         52.7
Q2 2002      5 Years          52        49.1            52.4              52.8                54.0                51.9               55.3                 56.2         56.5         54.7
Q3 2003      5 Years          74        48.0            48.8              49.0                49.2                48.5               49.3                 49.3         50.2         49.4
Q4 2003      2 Years          26        42.3            42.4              41.8                44.9                48.1               51.7                 53.8         54.1         54.9
Q2 2000      5 Years           8        52.5            61.0              59.6                63.3                66.6               68.9                 67.9         65.5         59.0
Q1 2002      3 Years           9        53.4            55.4              53.1                54.5                53.2               53.5                 53.4         54.2         56.7
Q3 2003      5 Years           9        55.8            54.7              51.2                49.1                47.7               50.1                 49.7         50.0         45.5
Q4 2004      5 Years           7        38.1            37.9              33.3                35.0                38.6               40.0                 37.7         33.6         37.7
Q4 2001      5 Years           1        31.4            44.6              56.8                48.0                35.9               32.2                 26.6         26.7         33.5
Q4 2001      4 Years           1        38.7            24.0              25.8                33.7                36.9               35.4                 29.1         21.0         23.0
Q4 2002      3 Years           1        41.7            44.8              45.0                37.9                42.0               40.8                 38.2         31.6         29.8
Q4 2005      3 Years           1        31.5            33.9              32.0                36.2                37.1               47.0                 40.6         41.1         46.3



                 OEI-06-06-00570         QUALITY   OF   CARE   IN   N U R S I N G H O M E S U N D E R C O R P O R AT E I N T E G R I T Y A G R E E M E N T S                  30
  A   P     P E N D           I X   ~          C


 Table 6 (continued): Quality Indicator/Quality Measure Annual Four-Quarter Averages for 15 Corporate
 Integrity Agreement Corporations and National Population

            Elimination/Incontinence: Residents Who Have/Had a Catheter Inserted and Left in Their Bladder
                                        1999            2000              2001                2002                2003               2004                2005         2006          2007
National Population Average             55.5            46.1               43.9                42.9                42.1               43.2                44.7         45.2          45.5
Standard Deviation                      33.9            33.6               33.5                33.3                33.2               33.9                34.7         34.7          34.9
Median                                  55.6            40.0               36.4                35.0                33.3               35.5                37.5         38.5          38.9
Number of Nursing Homes             17,370          17,214              17,011             16,763              16,558              16,346             16,196         16,026        15,964
                                                                       CIA Corporations
                       Number of
CIA Start    Term of     Nursing
Quarter         CIA       Homes         1999            2000              2001                2002                2003               2004                2005         2006          2007
Q2 2001      5 Years        251         60.5            49.6              45.4                45.1                43.1               42.9                47.4         47.4          49.4
Q1 2002      5 Years        138         60.9            54.5              52.7                55.3                36.6               25.2                24.0         32.5          33.7
Q2 2002      5 Years        185         69.7            55.8              56.0                55.4                53.5               53.1                39.4         38.8          39.4
Q2 2004      3 Years        341         58.5            48.4              46.8                46.5                42.6               43.3                44.5         43.9          41.7
Q2 2002      5 Years          52        74.8            41.3              51.7                49.2                53.3               49.1                36.7         49.3          51.4
Q3 2003      5 Years          74        75.2            63.5              64.0                56.7                52.3               57.7                62.0         62.8          54.6
Q4 2003      2 Years          26        46.1            33.5               29.                39.9                39.8               45.0                44.1         47.1          44.1
Q2 2000      5 Years           8        84.8            79.5              69.7                51.9                28.0               23.8                17.4          9.2          18.4
Q1 2002      3 Years           9        40.3            38.1              43.3                46.8                60.3               46.7                36.3         45.6          44.9
Q3 2003      5 Years           9        55.0            46.5              57.4                59.9                52.8               57.4                68.0         66.2          65.6
Q4 2004      5 Years           7        34.3            24.1              22.6                24.1                26.2               27.0                 9.2         10.2           7.9
Q4 2001      5 Years           1        60.0            85.2              55.4                41.1                55.6               54.6                25.0         25.3          78.6
Q4 2001      4 Years           1        53.1            62.5              27.8                14.1                 6.4               16.0                29.9         15.0          54.9
Q4 2002      3 Years           1        85.3            25.9              15.4                83.5                94.3               29.2                39.9         17.9          29.7
Q4 2005      3 Years           1        54.5            14.9               8.4                26.8                56.7               57.6                42.3         46.9          48.3
            Elimination/Incontinence: Prevalence of Occasional or Frequent Bladder or Bowel Incontinence
                                              Without a Toileting Plan
                                        1999            2000              2001                2002                2003               2004                2005         2006          2007
National Population Average              9.3             9.1                 9.2                 9.4                 9.3                8.6                    9.3      8.8           8.5
Standard Deviation                      12.0            11.1               10.5                10.2                  9.8                8.7                    9.0      8.3           8.0
Median                                   7.0             7.1                 7.4                 7.8                 7.7                7.2                    7.9      7.5           7.3
Number of Nursing Homes             17,370          17,214              17,011             16,763              16,558              16,346             16,196         16,026        15,964
                                                                       CIA Corporations
                       Number of
CIA Start    Term of     Nursing
Quarter         CIA       Homes         1999            2000              2001                2002                2003               2004                2005         2006          2007
Q2 2001      5 Years        251          8.5             8.6               9.5                 9.8                 9.5                9.0                 9.6          9.2           9.2
Q1 2002      5 Years        138          7.7             7.9               8.2                 8.5                 8.6                8.2                 8.6          8.9           8.3
Q2 2002      5 Years        185          8.3             8.6               9.5                10.0                 9.3                8.6                 9.2          8.2           7.6
Q2 2004      3 Years        341          8.2             8.3               8.6                 8.8                 8.8                8.6                 8.8          8.5           5.3
Q2 2002      5 Years          52         8.4             8.5               9.1                 9.2                 7.9                7.8                 7.8          7.8           7.0
Q3 2003      5 Years          74         8.8             9.4               9.8                 9.9                 9.8                9.7                11.4          9.5           9.6
Q4 2003      2 Years          26         8.2             8.6               9.8                10.0                10.5                9.8                10.4          9.4           9.0
Q2 2000      5 Years           8        13.1            13.5              18.8                11.8                 8.1                5.7                 6.7          9.6          11.8
Q1 2002      3 Years           9         7.4             6.0               6.6                 7.3                 7.2                7.3                 7.9          7.6           8.2
Q3 2003      5 Years           9        13.2            13.1              13.1                15.3                15.3               12.1                14.1         13.0          11.4
Q4 2004      5 Years           7         7.1             6.9               8.6                 8.1                 8.8               10.6                10.7          8.7           8.1
Q4 2001      5 Years           1        11.1            16.2              11.2                10.8                 7.7                3.1                 6.3          5.8           5.7
Q4 2001      4 Years           1         9.0            13.6              11.8                 8.8                 9.2                8.7                 3.3          5.5           3.9
Q4 2002      3 Years           1        10.1             8.1              13.6                15.1                11.6               11.2                11.7          9.4          10.0
Q4 2005      3 Years           1         5.6             4.4               5.8                 3.5                 4.9                4.6                 6.9          6.2           7.2




                 OEI-06-06-00570        QUALITY    OF   CARE   IN   N U R S I N G H O M E S U N D E R C O R P O R AT E I N T E G R I T Y A G R E E M E N T S                  31
  A   P     P E N D           I X     ~          C


 Table 6 (continued): Quality Indicator/Quality Measure Annual Four-Quarter Averages for 15 Corporate
 Integrity Agreement Corporations and National Population

                                    Elimination/Incontinence: Prevalence of Fecal Impaction

                                          1999            2000              2001                2002                2003               2004                2005         2006          2007
National Population Average                1.1             0.4                 0.3                 0.2                 0.2                0.1                    0.1      0.1           0.1
Standard Deviation                         3.5             2.0                 1.8                 1.2                 1.3                1.0                    1.2      1.3           0.9
Median                                      0                0                    0                   0                  0                   0                    0        0             0
Number of Nursing Homes                17,370         17,214              17,011             16,763              16,558              16,346             16,196         16,026        15,964
                                                                         CIA Corporations
                       Number of
CIA Start    Term of     Nursing
Quarter         CIA       Homes           1999            2000              2001                2002                2003               2004                2005         2006          2007
Q2 2001      5 Years        251            0.8             0.2               0.2                 0.1                 0.1                0.0                  0.0          0.0          0.0
Q1 2002      5 Years        138            1.4             0.6               0.2                 0.1                 0.2                0.1                  0.0          0.0          0.1
Q2 2002      5 Years        185            1.0             0.3               0.2                 0.2                 0.1                0.1                  0.0          0.0          0.0
Q2 2004      3 Years        341            1.9             0.2               0.1                 0.0                 0.0                0.0                  0.0          0.0          0.0
Q2 2002      5 Years          52           0.7             0.2               0.3                 0.1                 0.0                0.0                  0.0          0.0          0.0
Q3 2003      5 Years          74           1.2             0.3               0.2                 0.2                 0.2                0.1                  0.1          0.0          0.0
Q4 2003      2 Years          26           0.6             0.1               0.0                 0.1                 0.1                0.1                  0.0          0.0          0.0
Q2 2000      5 Years           8           0.8             0.6               0.2                 0.0                 0.1                0.0                  0.0          0.0          0.0
Q1 2002      3 Years           9           0.6             0.0               0.0                 0.0                 0.0                0.0                  0.0          0.0          0.0
Q3 2003      5 Years           9           0.6             0.4               0.2                 0.2                 0.1                0.1                  0.0          0.0          0.0
Q4 2004      5 Years           7           0.4             0.1               0.0                 0.1                 0.4                0.0                  0.0          0.0          0.0
Q4 2001      5 Years           1           0.5             0.3               2.7                 0.0                 0.0                0.5                  0.0          0.0          0.0
Q4 2001      4 Years           1           1.3             1.5               1.0                 0.9                 0.4                0.0                  0.0          0.0          0.0
Q4 2002      3 Years           1           1.4             0.0               0.6                 0.1                 0.0                0.1                  0.0          0.0          0.0
Q4 2005      3 Years           1           2.1             0.0               0.0                 0.0                 0.2                0.0                  0.2          0.0          0.0


                                    Infection Control: Residents With a Urinary Tract Infection

                                          1999            2000              2001                2002                2003               2004                2005         2006          2007
National Population Average                8.7             8.4                 8.6                 9.0                 9.0                9.0                    9.5      9.6           9.7
Standard Deviation                         9.3             8.4                 8.2                 8.2                 7.6                7.5                    7.8      7.4           7.4
Median                                     7.2             7.1                 7.4                 7.8                 8.0                8.0                    8.5      8.6           8.8
Number of Nursing Homes                17,370         17,214              17,011             16,763              16,558              16,346             16,196         16,026        15,964
                                                                         CIA Corporations
                       Number of
CIA Start    Term of     Nursing
Quarter         CIA       Homes           1999            2000              2001                2002                2003               2004                2005         2006          2007
Q2 2001      5 Years        251            8.4             9.0               9.6                10.0                10.1               10.1                 11.1         10.8         10.7
Q1 2002      5 Years        138            8.7             8.4               8.0                 8.5                 9.1                 9.0                 9.4          9.6         10.3
Q2 2002      5 Years        185            7.6             7.3               7.9                 8.4                 8.3                 8.6                 9.2          9.2          9.1
Q2 2004      3 Years        341            9.2             8.9               8.8                 9.1                 8.8                 8.2                 7.9          8.2          8.6
Q2 2002      5 Years          52           7.9             7.5               8.3                 7.8                 8.9                 8.2                 9.1          9.5         10.3
Q3 2003      5 Years          74           8.9             8.8               9.7                  9.0                9.8                 9.8                11.6         11.3         12.1
Q4 2003      2 Years          26          10.0            10.2               9.7                11.2                11.0               11.2                 11.3         11.8         12.5
Q2 2000      5 Years           8          10.9            10.4               7.9                 8.5                 6.8                 6.7                 5.5          7.2         10.2
Q1 2002      3 Years           9           8.2             7.6               7.8                 8.3                 8.0                 9.0                 9.3          7.8         11.2
Q3 2003      5 Years           9          13.0            11.4              11.3                11.9                14.8               13.2                 14.8         13.6         10.6
Q4 2004      5 Years           7           6.5             6.7               5.2                 8.0                 5.3                 7.3                 7.2          8.0          9.9
Q4 2001      5 Years           1           9.6            12.7              16.3                14.1                12.2                 7.2                 5.2         10.6         16.0
Q4 2001      4 Years           1           5.7             8.1               3.1                 3.6                 5.1                 6.0                 2.6          2.1          7.0
Q4 2002      3 Years           1           8.4             8.7              11.4                13.1                13.4               17.2                 16.7         14.3         14.1
Q4 2005      3 Years           1           5.7             3.6               5.1                 2.7                 4.2                 7.4                 8.8          5.7         13.5



                 OEI-06-06-00570          QUALITY    OF   CARE   IN   N U R S I N G H O M E S U N D E R C O R P O R AT E I N T E G R I T Y A G R E E M E N T S                  32
  A   P     P E N D           I X    ~          C


 Table 6 (continued): Quality Indicator/Quality Measure Annual Four-Quarter Averages for 15 Corporate
 Integrity Agreement Corporations and National Population

                                    Nutrition/Eating: Residents Who Lose Too Much Weight

                                         1999            2000              2001                2002                2003               2004                2005         2006          2007
National Population Average              12.3            11.5               11.4                10.9                10.8                 9.8               10.4         10.0           9.9
Standard Deviation                       10.8             9.9                 9.5                 9.1                 8.7                7.8                    8.2      7.7           7.5
Median                                   10.7            10.1               10.1                  9.8                 9.7                8.9                    9.5      9.1           9.0
Number of Nursing Homes              17,370          17,214              17,011             16,763              16,558              16,346             16,196         16,026        15,964
                                                                        CIA Corporations
                       Number of
CIA Start    Term of     Nursing
Quarter         CIA       Homes          1999            2000              2001                2002                2003               2004                2005         2006          2007
Q2 2001      5 Years        251          13.6            12.8              12.6                12.2                11.3               10.3                 11.0         10.1         10.0
Q1 2002      5 Years        138          12.8            11.8              11.2                10.5                10.9               10.0                 10.4         10.0         10.0
Q2 2002      5 Years        185          13.3            12.4              13.0                12.0                11.6               10.6                 11.0         10.3         10.4
Q2 2004      3 Years        341          11.9            11.0              10.7                10.3                 9.9                8.5                  8.5          7.8          7.5
Q2 2002      5 Years          52         12.1            11.2              11.7                10.9                10.5                9.3                  9.9         10.6         10.3
Q3 2003      5 Years          74         11.2            12.5              12.0                11.6                11.4               10.6                 10.5          9.9         10.9
Q4 2003      2 Years          26         12.9            12.5              13.1                12.6                11.5               10.4                 11.6         12.2         10.3
Q2 2000      5 Years           8         16.7            21.7              20.3                18.6                10.7                9.0                 11.9          8.8          8.2
Q1 2002      3 Years           9         13.4            10.4              10.9                 9.9                10.4                9.5                 10.0         12.8         12.3
Q3 2003      5 Years           9         20.0            14.2              14.4                14.2                14.2               12.4                 14.2         13.0         11.7
Q4 2004      5 Years           7         11.3            12.3              11.0                10.7                13.8                9.7                 12.1         13.1         16.1
Q4 2001      5 Years           1         16.0            15.7              15.1                10.6                12.8               13.1                 10.5          9.3         10.3
Q4 2001      4 Years           1         13.1            15.5              11.4                10.3                12.0               18.6                 15.6         18.0         12.7
Q4 2002      3 Years           1          8.1            12.2              12.2                 4.8                 8.9               13.2                  8.7         10.2         10.2
Q4 2005      3 Years           1         10.2             9.2              11.5                10.0                 8.1               10.3                  8.6          8.1          9.0


                                           Nutrition/Eating: Prevalence of Tube Feeding

                                         1999            2000              2001                2002                2003               2004                2005         2006          2007
National Population Average               8.1             8.0                 7.8                 7.7                 7.6                7.3                    7.2      7.0           6.7
Standard Deviation                        9.3            10.7               10.4                10.4                10.3               10.1                10.1          9.9           9.6
Median                                    7.2             5.4                 5.3                 5.2                 5.1                4.8                    4.7      4.6           4.4
Number of Nursing Homes              17,370          17,214              17,011             16,763              16,558              16,346             16,196         16,026        15,964
                                                                        CIA Corporations
                       Number of
CIA Start    Term of     Nursing
Quarter         CIA       Homes          1999            2000              2001                2002                2003               2004                2005         2006          2007
Q2 2001      5 Years        251           7.1             7.0               6.8                 6.8                 6.9                 6.4                 6.2          6.3          6.3
Q1 2002      5 Years        138           5.7             5.6               5.8                 6.0                 5.7                 5.3                 5.5          5.3          5.1
Q2 2002      5 Years        185           9.3             9.0               9.0                 8.9                 8.8                 8.8                 8.9          8.5          8.3
Q2 2004      3 Years        341           7.0             6.8               6.6                  6.3                 5.8                5.5                 5.3          5.1          4.8
Q2 2002      5 Years          52         11.8            12.7              13.4                13.7                12.9               11.5                 11.7         11.3          9.9
Q3 2003      5 Years          74         10.1            10.2              10.1                10.9                11.3                 9.9                10.0         10.8         10.4
Q4 2003      2 Years          26          7.7             8.2               8.9                  9.2                9.4                 8.2                 8.3          8.3          8.6
Q2 2000      5 Years           8          9.3            16.6               5.6                 8.4                 5.6                 5.9                 7.3          6.6          8.8
Q1 2002      3 Years           9         18.8            20.6              19.1                18.3                18.9               17.6                 17.5         19.1         18.0
Q3 2003      5 Years           9         16.8            16.0              16.2                15.9                15.5               14.2                 14.9         13.9         12.6
Q4 2004      5 Years           7          2.3             2.7               3.5                 2.4                 3.4                 4.4                 3.2          2.8          2.7
Q4 2001      5 Years           1          7.7             9.8               3.7                 4.1                 5.7                 5.6                 9.1          8.2          9.0
Q4 2001      4 Years           1          2.0             2.2               1.9                 2.8                 2.7                 0.9                 1.3          2.8          4.2
Q4 2002      3 Years           1          7.5             6.9               6.0                 5.6                 4.3                 5.0                 7.8          7.9          9.9
Q4 2005      3 Years           1         20.9            19.2              17.2                14.3                12.9                 7.4                 6.4          5.3          6.6




                 OEI-06-06-00570         QUALITY    OF   CARE   IN   N U R S I N G H O M E S U N D E R C O R P O R AT E I N T E G R I T Y A G R E E M E N T S                  33
    A       P   P E N D         I X     ~       C


 Table 6 (continued): Quality Indicator/Quality Measure Annual Four-Quarter Averages for 15 Corporate
 Integrity Agreement Corporations and National Population

                                            Nutrition/Eating: Prevalence of Dehydration

                                       1999            2000              2001                2002                2003               2004                2005         2006          2007
National Population Average              1.6            1.0                 0.8                 0.7                 0.6                0.4                    0.4      0.4           0.3
Standard Deviation                       5.8            4.7                 3.8                 3.3                 2.9                2.3                    2.7      2.5           2.0
Median                                      0             0                    0                   0                  0                   0                    0        0             0
Number of Nursing Homes               17,370        17,214             17,011             16,763              16,558              16,346             16,196         16,026        15,964
                                                                      CIA Corporations
                          Number of
CIA Start       Term of     Nursing
Quarter            CIA       Homes     1999            2000              2001                2002                2003               2004                2005         2006          2007
Q2 2001         5 Years        251      1.9             1.0               0.8                 0.7                 0.5                0.3                  0.2          0.3          0.2
Q1 2002         5 Years        138      1.6             1.0               0.8                 1.0                 0.8                0.7                  0.4          0.3          0.2
Q2 2002         5 Years        185      2.1             0.8               0.7                 0.5                 0.3                0.2                  0.2          0.1          0.1
Q2 2004         3 Years        341      1.1             0.4               0.3                 0.2                 0.2                0.1                  0.1          0.1          0.1
Q2 2002         5 Years          52     2.4             1.1               0.7                 0.5                 0.2                0.1                  0.4          0.3          0.2
Q3 2003         5 Years          74     1.5             0.8               0.6                 0.7                 0.5                0.5                  0.7          0.4          0.3
Q4 2003         2 Years          26     1.5             0.4               0.2                 0.3                 0.2                0.2                  0.2          0.1          0.1
Q2 2000         5 Years           8     3.2             4.5               3.2                 0.6                 0.3                0.1                  0.6          0.0          0.2
Q1 2002         3 Years           9     0.4             0.1               0.1                 0.2                 0.1                0.0                  0.0          0.0          0.0
Q3 2003         5 Years           9     4.2             1.3               1.1                 1.2                 1.1                0.7                  0.9          1.0          0.6
Q4 2004         5 Years           7     0.6             0.3               0.6                 0.3                 0.1                0.5                  0.1          0.3          0.3
Q4 2001         5 Years           1     0.0             0.0               0.2                 0.0                 0.3                0.0                  0.3          1.4          1.1
Q4 2001         4 Years           1     3.4             2.4               0.2                 0.0                 0.2                0.0                  0.0          0.0          0.0
Q4 2002         3 Years           1     2.1             0.2               0.3                 0.2                 0.4                0.1                  0.3          0.4          0.4
Q4 2005         3 Years           1     0.7             0.6               0.2                 0.0                 0.0                0.0                  0.0          0.3          0.2


                                Pain Management: Residents Who Have Moderate to Severe Pain

                                       1999            2000              2001                2002                2003               2004                2005         2006          2007
National Population Average             13.7           13.2               13.1                12.5                10.7                 9.8               10.1          9.3           8.7
Standard Deviation                      13.2           12.3               12.3                11.9                11.0               10.1                10.6          9.8           9.5
Median                                  10.7           10.4               10.3                  9.8                 8.0                7.3                    7.6      7.0           6.4
Number of Nursing Homes               17,370        17,214             17,011             16,763              16,558              16,346             16,196         16,026        15,964
                                                                      CIA Corporations
                          Number of
CIA Start       Term of     Nursing
Quarter            CIA       Homes     1999            2000              2001                2002                2003               2004                2005         2006          2007
Q2 2001         5 Years        251     14.2            13.8              14.3                14.1                12.6               11.1                 10.6          8.8          7.5
Q1 2002         5 Years        138     13.9            14.3              13.8                14.5                14.3               13.1                 12.9         11.0          9.6
Q2 2002         5 Years        185     11.5            12.1              12.5                11.5                 8.6                 8.4                 8.9          8.1          7.6
Q2 2004         3 Years        341     12.9            12.9              12.6                11.3                  7.0                5.2                 5.1          4.6          4.6
Q2 2002         5 Years          52    10.3             9.8              11.0                10.3                 7.4                 7.2                 7.9          7.4          7.6
Q3 2003         5 Years          74    12.9            11.9              12.2                11.9                10.4               10.2                 11.3          9.2          6.7
Q4 2003         2 Years          26    13.8            12.2              13.3                13.4                11.2               10.6                 10.5         10.0          7.8
Q2 2000         5 Years           8    22.7            30.9              17.9                15.6                10.7                 8.2                12.2         12.0          7.4
Q1 2002         3 Years           9    11.3            10.8               9.8                 7.4                 5.4                 4.5                 4.7          5.0          4.9
Q3 2003         5 Years           9    13.8            12.9              12.2                12.1                13.1               13.8                 13.3         15.6         13.3
Q4 2004         5 Years           7    13.7             9.2               6.7                 9.2                10.4                 8.3                 5.6          7.8          8.5
Q4 2001         5 Years           1    13.3            13.5              19.3                21.5                16.4               12.8                 17.3         11.9          5.9
Q4 2001         4 Years           1    13.7            25.4              25.0                11.5                 8.0                 9.4                11.3          1.4          1.4
Q4 2002         3 Years           1     7.0             6.2              11.2                12.5                 7.3                 5.9                 9.9         13.8         14.2
Q4 2005         3 Years           1    18.6            16.5              13.5                14.1                  8.2                8.5                 5.6          5.8          8.2



                   OEI-06-06-00570      QUALITY   OF   CARE   IN   N U R S I N G H O M E S U N D E R C O R P O R AT E I N T E G R I T Y A G R E E M E N T S                  34
A    P   P E N D         I X       ~       C


    Table 6 (continued): Quality Indicator/Quality Measure Annual Four-Quarter Averages for 15 Corporate
    Integrity Agreement Corporations and National Population

               Physical Functioning: Residents Whose Need for Help With Daily Activities Has Increased

                                        1999            2000              2001                2002                2003               2004                2005         2006          2007
National Population Average              15.9           15.8               15.8                15.9                15.8               15.8                15.8         15.9          15.4
Standard Deviation                       10.8           10.3               10.0                10.1                  9.7                9.7                    9.8      9.8           9.4
Median                                   14.3           14.3               14.3                14.4                14.4               14.3                14.3         14.5          14.1
Number of Nursing Homes                17,370       17,214              17,011             16,763              16,558              16,346             16,196         16,026        15,964
                                                                       CIA Corporations
                       Number of
CIA Start    Term of     Nursing
Quarter         CIA       Homes         1999            2000              2001                2002                2003               2004                2005         2006          2007
Q2 2001      5 Years        251         18.0            18.6              18.9                18.3                18.2               18.2                 18.0         20.2         19.1
Q1 2002      5 Years        138         15.2            16.5              16.0                16.8                15.0               15.2                 17.0         17.4         18.6
Q2 2002      5 Years        185         17.0            17.6              17.8                20.3                23.3               22.9                 23.0         23.7         23.1
Q2 2004      3 Years        341         17.9            19.3              22.2                23.3                22.2               22.9                 18.4         18.2         17.7
Q2 2002      5 Years          52        14.5            14.6              15.2                17.9                19.8               18.4                 17.7         17.9         17.8
Q3 2003      5 Years          74        13.8            13.7              14.9                16.5                18.2               18.8                 18.5         19.9         18.9
Q4 2003      2 Years          26        16.3            16.8              17.7                21.0                19.6               19.7                 18.7         17.7         17.4
Q2 2000      5 Years           8        16.8             3.3              12.6                13.3                12.5               14.9                 11.7         15.7         11.0
Q1 2002      3 Years           9        16.0            13.9              11.5                12.2                14.7               12.3                 13.4         16.1         14.6
Q3 2003      5 Years           9        14.9            15.9              18.9                16.5                18.6               14.3                 14.5         16.5         21.6
Q4 2004      5 Years           7        12.1            12.6               9.3                10.1                11.1               13.5                 12.2         12.3         15.8
Q4 2001      5 Years           1        21.8            24.8              20.2                11.9                17.6               20.2                 21.6         27.0         24.5
Q4 2001      4 Years           1        14.8            14.5              17.1                14.2                19.8               14.8                 14.2         21.0         14.7
Q4 2002      3 Years           1        11.8            18.1              15.6                 9.9                11.3                8.2                 13.0          7.1          8.4
Q4 2005      3 Years           1        14.2            12.9              10.7                11.9                12.2               12.4                 13.4         16.1         13.5


                 Physical Functioning: Residents Who Spend Most of Their Time in a Bed or in a Chair

                                        1999            2000              2001                2002                2003               2004                2005         2006          2007
National Population Average               8.5            7.0                 6.4                 6.0                 5.7                5.4                    5.4      5.2           5.1
Standard Deviation                       12.6           11.2               10.4                  9.8                 9.4                8.9                    8.8      8.5           8.3
Median                                    5.1            4.0                 3.7                 3.4                 3.2                3.0                    3.0      2.9           2.8
Number of Nursing Homes                17,370       17,214              17,011             16,763              16,558              16,346             16,196         16,026        15,964
                                                                       CIA Corporations
                       Number of
CIA Start    Term of     Nursing
Quarter         CIA       Homes         1999            2000              2001                2002                2003               2004                2005         2006          2007
Q2 2001      5 Years        251          8.0             6.6               6.3                 6.1                 6.1                 6.2                 5.6          5.6          5.9
Q1 2002      5 Years        138          7.5             6.9               6.4                 6.5                 6.3                 5.5                 5.1          4.9          4.5
Q2 2002      5 Years        185          9.7             8.5               7.7                 7.1                 6.5                 6.3                 6.2          5.9          5.7
Q2 2004      3 Years        341          7.1             5.6               5.4                  5.2                 4.6                4.1                 3.5          3.2          3.3
Q2 2002      5 Years          52        11.4             8.3               8.0                 7.4                 6.7                 6.8                 6.7          6.2          5.6
Q3 2003      5 Years          74         8.8             7.8               7.1                  7.6                9.2                 9.6                10.0          9.1          9.2
Q4 2003      2 Years          26         8.2             6.4               5.2                  5.2                5.6                 5.0                 5.3          5.3          6.1
Q2 2000      5 Years           8        11.1            13.0              10.4                11.2                 7.1                 5.1                 4.4          3.3          5.4
Q1 2002      3 Years           9        11.9             6.3               5.3                 5.2                 6.3                 7.3                 8.3         10.2         10.0
Q3 2003      5 Years           9        13.5            10.3              12.5                14.3                13.9               12.8                 13.1         15.1         11.8
Q4 2004      5 Years           7         4.0             3.4               3.8                 2.1                 2.4                 3.3                 2.3          2.9          2.0
Q4 2001      5 Years           1         6.9            13.2               4.9                11.8                10.1                 4.5                 3.6          2.5          5.6
Q4 2001      4 Years           1        13.0             6.2               4.1                 9.4                 2.4                 1.8                 3.5          2.1          4.7
Q4 2002      3 Years           1         6.8             6.8               4.8                 2.9                 1.8                 1.4                 2.1          1.9          4.4
Q4 2005      3 Years           1         8.9             5.8               5.2                 3.2                 4.1                 5.3                 5.7          6.5          6.6



                 OEI-06-06-00570         QUALITY   OF   CARE   IN   N U R S I N G H O M E S U N D E R C O R P O R AT E I N T E G R I T Y A G R E E M E N T S                  35
A    P   P E N D         I X       ~       C


    Table 6 (continued): Quality Indicator/Quality Measure Annual Four-Quarter Averages for 15 Corporate
    Integrity Agreement Corporations and National Population

            Physical Functioning: Residents Whose Ability To Move In and Around Their Rooms Got Worse

                                        1999            2000              2001                2002                2003               2004                2005         2006          2007
National Population Average              15.0           14.9               14.9                15.1                15.0               15.1                15.1         15.1          14.9
Standard Deviation                       10.9           10.4               10.1                10.2                10.1               10.3                10.3         10.2          10.0
Median                                   13.3           13.3               13.5                13.6                13.6               13.6                13.5         13.6          13.3
Number of Nursing Homes                17,370       17,214              17,011             16,763              16,558              16,346             16,196         16,026        15,964
                                                                       CIA Corporations
                       Number of
CIA Start    Term of     Nursing
Quarter         CIA       Homes         1999            2000              2001                2002                2003               2004                2005         2006          2007
Q2 2001      5 Years        251         17.4            17.5              17.6                17.2                17.1               16.7                 16.5         17.1         15.9
Q1 2002      5 Years        138         14.0            14.5              14.6                15.1                14.2               14.5                 13.9         14.2         15.5
Q2 2002      5 Years        185         15.6            15.6              16.5                18.2                20.6               21.3                 21.7         22.1         23.4
Q2 2004      3 Years        341         15.7            17.0              19.7                21.2                20.9               21.5                 19.9         19.7         19.1
Q2 2002      5 Years          52        14.2            15.1              15.0                18.1                18.5               17.3                 19.0         18.3         16.9
Q3 2003      5 Years          74        13.1            11.8              12.6                13.9                14.9               15.9                 16.4         17.3         17.7
Q4 2003      2 Years          26        15.9            16.1              17.3                19.2                18.8               18.6                 19.9         17.0         17.9
Q2 2000      5 Years           8        20.4            14.9              11.4                12.6                14.6               16.0                 13.1         19.4         13.9
Q1 2002      3 Years           9        17.4            13.0              13.0                13.1                13.7               13.7                 14.5         15.6         14.2
Q3 2003      5 Years           9        16.8            15.2              16.6                18.6                18.6               13.9                 14.9         13.8         21.9
Q4 2004      5 Years           7         8.4            10.2               7.7                 9.2                 8.0               11.5                  8.5         10.1         11.9
Q4 2001      5 Years           1        14.3            21.9              16.9                 8.8                12.4               10.3                  8.1         11.0         12.7
Q4 2001      4 Years           1        10.8            17.3              20.8                16.1                14.9               12.2                 13.0         18.4         10.5
Q4 2002      3 Years           1        10.6             8.2              12.6                10.5                11.8                7.5                 11.5          7.0          8.8
Q4 2005      3 Years           1        12.7            10.9               9.2                11.4                11.4               12.9                 13.2         15.3         12.1


                               Physical Functioning: Incidence of Decline in Range of Motion

                                        1999            2000              2001                2002                2003               2004                2005         2006          2007
National Population Average               9.8            8.9                 8.3                 8.1                 7.7                7.4                    7.4      7.2           6.9
Standard Deviation                        9.7            8.9                 8.3                 8.2                 7.7                7.4                    7.6      7.5           7.1
Median                                    7.7            6.9                 6.5                 6.3                 6.0                5.7                    5.6      5.4           5.2
Number of Nursing Homes                17,370       17,214              17,011             16,763              16,558              16,346             16,196         16,026        15,964
                                                                       CIA Corporations
                       Number of
CIA Start    Term of     Nursing
Quarter         CIA       Homes         1999            2000              2001                2002                2003               2004                2005         2006          2007
Q2 2001      5 Years        251         10.2             8.7               7.8                 7.3                 7.1                 6.7                 6.3          6.4          5.9
Q1 2002      5 Years        138          8.2             7.5               6.5                 7.3                 7.1                 7.1                 6.6          7.3          7.8
Q2 2002      5 Years        185         10.9             9.9               9.0                 8.7                 9.3                 9.8                10.2          9.2          9.1
Q2 2004      3 Years        341          9.9             9.4               9.3                 9.3                 8.6                 7.9                 6.9          6.9          6.9
Q2 2002      5 Years          52         9.1             8.1               8.1                 8.6                 8.2                 8.6                 8.9          9.0         10.1
Q3 2003      5 Years          74         8.3             6.9               8.2                  8.1                7.5                 6.7                 7.2          7.0          6.9
Q4 2003      2 Years          26         8.5             8.3               7.5                  8.1                6.7                 6.2                 7.4          6.3          7.7
Q2 2000      5 Years           8         8.7             5.8               6.2                 7.4                 9.3                 5.2                 6.0          5.7          8.7
Q1 2002      3 Years           9        10.8             7.1               6.3                 8.4                 6.3                 4.6                 7.1          8.4          6.9
Q3 2003      5 Years           9        10.5            12.2              10.7                 8.3                 9.6                 7.4                 7.4          9.3          8.8
Q4 2004      5 Years           7         5.4             5.5               2.9                 3.8                 4.8                 6.0                 6.5          6.2          7.1
Q4 2001      5 Years           1         7.2            19.3               9.0                 8.7                 6.9                 4.7                 2.3          4.3          9.4
Q4 2001      4 Years           1         8.8             5.7               4.9                 4.1                 4.3                 5.4                 3.4          3.0          4.7
Q4 2002      3 Years           1         4.6            12.9               7.4                 4.0                 7.4                 5.5                 3.0          6.0          2.5
Q4 2005      3 Years           1        10.0            10.0               5.6                 8.3                 5.6                 4.0                 6.2          8.4          8.5




                 OEI-06-06-00570         QUALITY   OF   CARE   IN   N U R S I N G H O M E S U N D E R C O R P O R AT E I N T E G R I T Y A G R E E M E N T S                  36
    A       P    P E N D          I X     ~      C


 Table 6 (continued): Quality Indicator/Quality Measure Annual Four-Quarter Averages for 15 Corporate
 Integrity Agreement Corporations and National Population

                Psychotropic Drug Use: Prevalence of Antipsychotic Use, in the Absence of Psychotic Conditions

                                         1999            2000              2001                2002                2003               2004                2005     2006          2007
National Population Average               16.4           17.3               18.6                20.5                21.6               22.0                21.6     20.9          20.2
Standard Deviation                        11.5           11.4               11.7                12.2                12.4               12.8                12.7     12.6          12.6
Median                                    14.8           15.8               17.1                19.1                20.2               20.6                20.0     19.4          18.6
Number of Nursing Homes                 17,370       17,214              17,011             16,763              16,558              16,346             16,196     16,026        15,964
                                                                        CIA Corporations
                            Number of
CIA Start         Term of     Nursing
Quarter              CIA       Homes     1999            2000              2001                2002                2003               2004                2005     2006          2007
Q2 2001           5 Years        251     14.6            16.9              18.5                20.8                21.7               22.1                 20.7     18.8         18.9
Q1 2002           5 Years        138     19.8            20.2              21.4                23.7                24.3               22.6                 20.9     20.9         21.1
Q2 2002           5 Years        185     18.2            19.4              20.7                22.7                23.6               22.6                 20.1     17.1         14.8
Q2 2004           3 Years        341     16.0            17.0              18.8                19.8                18.9               17.9                 18.3     18.7         18.1
Q2 2002           5 Years          52    14.6            14.8              16.3                18.4                18.1               17.8                 17.7     18.1         19.2
Q3 2003           5 Years          74    14.2            14.5              15.6                17.5                17.5               18.4                 17.5     17.2         16.8
Q4 2003           2 Years          26    12.1            13.0              12.3                12.7                15.6               15.6                 14.0     13.6         12.3
Q2 2000           5 Years           8    14.8            16.5              16.0                18.3                15.3               16.3                 13.4     12.2         13.7
Q1 2002           3 Years           9    17.2            16.0              17.8                19.5                17.0               18.6                 16.8     16.2         15.9
Q3 2003           5 Years           9    10.5            11.7              13.7                18.5                20.0               19.5                 18.5     18.2         17.7
Q4 2004           5 Years           7    16.2            19.3              23.1                24.4                22.9               19.0                 15.7     18.9         22.3
Q4 2001           5 Years           1    23.8            22.0              24.0                24.8                27.3               33.7                 21.2     17.3         31.7
Q4 2001           4 Years           1    14.7            17.0              16.2                19.4                24.8               23.8                 25.1     27.7         21.0
Q4 2002           3 Years           1    12.6            12.9              13.2                18.0                27.1               31.1                 28.5     25.5         25.4
Q4 2005           3 Years           1    10.6             6.9              10.4                15.1                20.4               21.0                 26.2     19.2         19.2


                                Psychotropic Drug Use: Prevalence of Antianxiety/Hypnotic Drug Use

                                         1999            2000              2001                2002                2003               2004                2005     2006          2007
National Population Average               18.2           17.7               17.9                18.1                18.1               18.2                19.1     20.3          21.2
Standard Deviation                        12.1           11.6               11.5                11.3                11.0               10.9                11.1     11.3          11.6
Median                                    16.7           16.1               16.3                16.7                16.7               16.7                17.6     18.9          20.0
Number of Nursing Homes                 17,370       17,214              17,011             16,763              16,558              16,346             16,196     16,026        15,964
                                                                        CIA Corporations
                            Number of
CIA Start         Term of     Nursing
Quarter              CIA       Homes     1999            2000              2001                2002                2003               2004                2005     2006          2007
Q2 2001           5 Years        251     18.4            18.3              18.6                18.2                18.4               18.3                 19.1     19.8         20.6
Q1 2002           5 Years        138     18.1            17.6              18.8                18.7                19.1               17.7                 19.0     20.4         21.6
Q2 2002           5 Years        185     17.5            16.7              16.4                16.7                18.0               17.7                 19.0     19.9         20.5
Q2 2004           3 Years        341     16.9            16.7              17.1                17.1                16.6               16.2                 17.2     19.3         19.8
Q2 2002           5 Years          52    15.0            14.6              15.4                15.9                15.8               16.3                 17.3     18.3         19.3
Q3 2003           5 Years          74    16.9            16.6              16.5                18.0                19.3               19.6                 19.8     21.6         22.8
Q4 2003           2 Years          26    21.3            20.9              21.7                21.2                22.9               24.6                 24.0     26.7         26.9
Q2 2000           5 Years           8    25.9            26.0              11.9                14.5                12.8               14.4                 17.8     20.4         20.4
Q1 2002           3 Years           9     9.9             8.8               8.1                 7.7                 8.2                 7.5                 7.6      8.0          9.1
Q3 2003           5 Years           9    21.7            19.0              22.4                22.4                23.0               20.1                 23.5     28.2         26.3
Q4 2004           5 Years           7    20.2            21.2              22.5                22.7                22.4               20.4                 16.0     14.2         17.3
Q4 2001           5 Years           1    17.7            11.1              17.3                19.8                25.9               25.5                 26.9     23.9         20.4
Q4 2001           4 Years           1    15.4            15.4              16.5                25.7                21.0               20.6                 11.8     20.3         24.3
Q4 2002           3 Years           1    14.3            14.9              10.9                 9.7                 9.2                 7.3                12.6     10.9         10.4
Q4 2005           3 Years           1    21.1            17.3              12.2                13.8                14.5               12.2                 17.7     20.3         24.7



                     OEI-06-06-00570      QUALITY   OF   CARE   IN   N U R S I N G H O M E S U N D E R C O R P O R AT E I N T E G R I T Y A G R E E M E N T S              37
  A   P     P E N D           I X      ~          C


 Table 6 (continued): Quality Indicator/Quality Measure Annual Four-Quarter Averages for 15 Corporate
 Integrity Agreement Corporations and National Population

                Psychotropic Drug Use: Prevalence of Hypnotic Use More Than Two Times in Last Week

                                           1999            2000              2001                2002                2003               2004                2005         2006          2007
National Population Average                 3.9             3.6                 3.7                 3.7                 3.9                3.9                    4.1      4.6           5.0
Standard Deviation                          6.6             5.9                 5.9                 5.7                 5.6                5.5                    5.5      5.6           5.8
Median                                      2.5             2.3                 2.4                 2.5                 2.7                2.6                    2.9      3.3           3.7
Number of Nursing Homes                17,370          17,214              17,011             16,763              16,558              16,346             16,196         16,026        15,964
                                                                          CIA Corporations
                       Number of
CIA Start    Term of     Nursing
Quarter         CIA       Homes            1999            2000              2001                2002                2003               2004                2005         2006          2007
Q2 2001      5 Years        251             3.4             3.3               3.4                 3.3                 3.4                3.3                  3.8          4.1          4.5
Q1 2002      5 Years        138             3.5             3.1               3.1                 3.6                 3.6                3.5                  3.7          4.3          5.0
Q2 2002      5 Years        185             3.7             3.2               3.4                 3.4                 4.0                3.9                  4.3          5.0          5.3
Q2 2004      3 Years        341             2.8             2.7               2.5                 2.6                 2.6                2.5                  2.9          3.4          3.7
Q2 2002      5 Years          52            3.1             3.1               3.6                 3.7                 3.8                4.9                  5.2          5.6          5.7
Q3 2003      5 Years          74            3.7             3.5               3.9                 4.0                 4.4                4.4                  4.4          5.1          5.8
Q4 2003      2 Years          26            5.2             5.3               5.6                 5.5                 5.7                5.8                  6.4          6.5          6.9
Q2 2000      5 Years           8           10.0             4.6               4.8                 5.2                 3.7                3.9                  7.1         10.1          8.2
Q1 2002      3 Years           9            1.3             1.1               1.4                 1.7                 1.8                1.9                  1.8          2.2          1.9
Q3 2003      5 Years           9            4.5             3.9               5.9                 5.2                 5.7                4.7                  5.2          6.7          6.7
Q4 2004      5 Years           7            6.1             4.8               3.9                 3.8                 4.8                5.7                  1.3          1.0          1.6
Q4 2001      5 Years           1            7.6             1.9               4.9                 6.1                12.8               15.4                 12.4         13.9         10.4
Q4 2001      4 Years           1            5.7             2.6               3.1                 6.0                 3.3                2.8                  3.0          6.5          7.9
Q4 2002      3 Years           1            1.0             0.5               0.8                 1.0                 1.3                1.0                  2.9          2.0          2.4
Q4 2005      3 Years           1            7.7             4.2               1.5                 1.5                 3.6                3.7                  4.5          6.0          8.0

                                    Quality of Life: Residents Who Were Physically Restrained

                                           1999            2000              2001                2002                2003               2004                2005         2006          2007
National Population Average                10.5            10.2               10.1                  9.4                 8.0                7.4                    6.7      6.0           5.2
Standard Deviation                         11.2            11.0               10.7                10.2                  8.8                8.5                    8.1      7.7           7.0
Median                                      7.3             7.1                 7.2                 6.5                 5.5                4.9                    4.2      3.6           2.9
Number of Nursing Homes                17,370          17,214              17,011             16,763              16,558              16,346             16,196         16,026        15,964
                                                                          CIA Corporations
                       Number of
CIA Start    Term of     Nursing
Quarter         CIA       Homes            1999            2000              2001                2002                2003               2004                2005         2006          2007
Q2 2001      5 Years        251             7.7             8.0               8.1                 8.0                 6.8                 7.0                 6.1          5.6          4.9
Q1 2002      5 Years        138             7.9             8.1               8.2                 7.9                 7.9                 7.3                 6.0          5.3          4.4
Q2 2002      5 Years        185            11.7            11.4              11.7                11.6                 8.6                 7.3                 6.7          6.7          5.4
Q2 2004      3 Years        341             6.0             6.3               6.5                  5.4                 3.9                2.8                 1.9          1.9          1.9
Q2 2002      5 Years          52           16.7            16.5              17.9                16.9                12.1                 9.7                 8.1          7.1          6.9
Q3 2003      5 Years          74            9.3            11.0              11.0                  9.5                7.4                 7.3                 6.3          5.3          3.6
Q4 2003      2 Years          26            6.4             6.7               6.7                  7.6                7.1                 8.5                 8.4          9.0          7.9
Q2 2000      5 Years           8           19.5            20.7              15.7                15.8                14.7               16.1                 16.6         11.6          7.1
Q1 2002      3 Years           9           15.2            12.9              11.1                 7.0                 7.0                 8.6                 7.2          3.8          2.9
Q3 2003      5 Years           9            7.8            12.2              13.9                10.3                 7.0                 6.8                 5.3          5.5          3.7
Q4 2004      5 Years           7           11.2             9.3              11.2                12.8                14.3               13.1                  4.6          2.0          1.1
Q4 2001      5 Years           1           23.2             3.4              12.5                 9.7                 7.8               15.8                  5.4          9.7          9.0
Q4 2001      4 Years           1            5.7            10.5              10.3                14.7                 9.5                 3.0                 2.8          2.1          0.2
Q4 2002      3 Years           1            5.8            10.7              14.0                12.3                17.0               11.9                  9.9          8.4          7.6
Q4 2005      3 Years           1           16.9            28.7              24.4                19.8                  6.8                5.3                 3.9          6.5          2.7




                 OEI-06-06-00570           QUALITY    OF   CARE   IN   N U R S I N G H O M E S U N D E R C O R P O R AT E I N T E G R I T Y A G R E E M E N T S                  38
A    P   P E N D             I X          ~        C


    Table 6 (continued): Quality Indicator/Quality Measure Annual Four-Quarter Averages for 15 Corporate
    Integrity Agreement Corporations and National Population

                                                Quality of Life: Prevalence of Little or No Activity

                                               1999            2000               2001               2002                2003               2004               2005          2006          2007
National Population Average                     30.9           20.8                15.9               13.1                11.1                 9.5                    8.7      8.1           7.5
Standard Deviation                              22.1           17.8                15.6               14.3                13.4               12.5                12.2         11.8          11.3
Median                                          27.6           17.2                12.0                 9.1                 7.0                5.5                    4.5      3.9           3.4
Number of Nursing Homes                       17,370        17,214             17,011             16,763              16,558              16,346             16,196         16,026        15,964
                                                                              CIA Corporations
                           Number of
CIA Start       Term of      Nursing
Quarter            CIA        Homes            1999            2000               2001               2002                2003               2004               2005          2006          2007
Q2 2001         5 Years         251            28.3            18.8               14.1               10.5                 7.7                6.6                 5.7           5.3          4.4
Q1 2002         5 Years         138            31.5            19.9               14.5               13.6                10.8                9.9                 7.9           7.7          5.3
Q2 2002         5 Years         185            32.1            20.5               14.9               11.6                 8.6                6.0                 5.6           4.3          3.4
Q2 2004         3 Years         341            26.8            17.6               12.7                9.7                 7.1                5.5                 4.4           3.9          4.1
Q2 2002         5 Years           52           28.8            17.8               13.8                9.8                 6.8                5.5                 4.4           4.5          4.1
Q3 2003         5 Years           74           33.8            19.0               13.3               12.2                11.4                9.8                 7.1           6.0          5.7
Q4 2003         2 Years           26           23.5            13.5               10.7                8.9                 4.6                3.2                 2.6           2.6          1.6
Q2 2000         5 Years            8           19.3            15.7               11.9                8.2                 5.6                5.6                 3.5           0.6          1.4
Q1 2002         3 Years            9           33.0            18.7               11.6                6.9                 5.4                2.5                 1.6           1.3          0.5
Q3 2003         5 Years            9           38.5            23.1               15.6               14.4                16.5               11.2                 8.4          10.6          5.9
Q4 2004         5 Years            7           22.8            18.3               14.8               10.9                10.1                9.7                 2.6           2.7          1.8
Q4 2001         5 Years            1           55.4            68.4               69.0               12.9                 9.9               23.8                 4.5           3.1          2.4
Q4 2001         4 Years            1           40.9            41.0               31.9               22.9                16.0               18.2                13.5          16.6         23.4
Q4 2002         3 Years            1           57.2            27.4               28.6               25.5                24.9               18.9                 7.3           7.3          7.5
Q4 2005         3 Years            1           22.1             4.3                4.2                4.4                 0.8                0.0                 0.4           0.0          0.3

                                                    Skin Care: Residents With Pressure Ulcers

                                               1999            2000               2001               2002                2003               2004               2005          2006          2007
National Population Average                     10.8           10.3                10.4               10.3                10.5                 9.9               10.3          9.8           9.5
Standard Deviation                              11.1           10.3                10.2                 9.8                 9.5                8.8                    9.1      8.5           8.1
Median                                           9.0            8.7                 8.9                 8.8                 9.1                8.7                    9.0      8.6           8.3
Number of Nursing Homes                       17,370        17,214             17,011             16,763              16,558              16,346             16,196         16,026        15,964
                                                                              CIA Corporations
                           Number of
CIA Start       Term of      Nursing
Quarter            CIA        Homes            1999            2000               2001               2002                2003               2004               2005          2006          2007
Q2 2001         5 Years         251            10.1            10.3               10.4               10.4                10.3                 9.5                9.9           9.2          9.3
Q1 2002         5 Years         138             8.3             8.7                 9.2               9.1                 9.3                 8.9                8.9           9.1          9.2
Q2 2002         5 Years         185            11.0            10.4               10.9               10.6                10.5                 9.5               10.1           9.6         10.0
Q2 2004         3 Years         341             8.5             8.8                8.7                 8.3                8.1                 7.3                7.4           7.1          6.9
Q2 2002         5 Years           52           14.0            12.8               13.0               12.0                11.5               11.7                11.9          11.7         13.2
Q3 2003         5 Years           74           11.9            11.6               11.3               11.7                11.9               11.9                12.6          12.4         11.5
Q4 2003         2 Years           26           11.7            11.8               11.8               12.2                11.4               11.7                13.0          12.8         13.0
Q2 2000         5 Years            8           24.7            31.6               18.5               18.9                12.9               11.0                11.9          13.7         14.1
Q1 2002         3 Years            9           14.8            11.6               13.9               15.0                16.5               14.5                15.9          16.8         18.7
Q3 2003         5 Years            9           21.4            19.4               21.2               20.0                18.1               14.5                16.2          15.1         13.4
Q4 2004         5 Years            7           11.4            11.6               10.7                 9.4               11.3               15.2                 9.9           6.9          8.6
Q4 2001         5 Years            1            7.4            14.3               11.2                7.7                12.2                 9.1                8.1          11.6          9.6
Q4 2001         4 Years            1            8.5             6.0                9.8                8.5                 6.9                 7.1                1.0           3.5          4.2
Q4 2002         3 Years            1           15.9             9.0               15.1               11.6                10.8                 9.3                7.9           8.9          6.6
Q4 2005         3 Years            1            9.5             6.5                 6.5                6.5                7.0                 4.6               10.7          10.1         14.2
Source: Office of Inspector General Analysis of Quality Indicator/Quality Measure data.


                     OEI-06-06-00570            QUALITY   OF   CARE   IN   N U R S I N G H O M E S U N D E R C O R P O R AT E I N T E G R I T Y A G R E E M E N T S                  39
Δ      A P P E N D I X ~ D



                      STATE SURVEY DEFICIENCIES DATA BY CORPORATION

                      State Survey Deficiencies. The Centers for Medicare & Medicaid
                      Services (CMS) contracts with States to survey nursing homes initially,
                      and routinely thereafter, for participation in the Medicare and Medicaid
                      programs. 22 States verify that the nursing homes maintain Federal
                      quality of care standards by conducting a standard survey of each
                      nursing home every 9 to 15 months. When surveyors determine that an
                      area of care in a nursing home does not meet Federal standards, they
                      issue a “deficiency tag.” Each deficiency tag includes a number that
                      describes the specific infraction and a letter indicating the scope and
                      severity. (See Table 7.) The scope refers to the number of affected
                      residents and the severity refers to the degree of harm. CMS uses
                      47 deficiency tags to determine whether a nursing home is providing
                      substandard quality of care. These deficiency tags refer to quality of
                      life, quality of care, and participation requirements for resident
                      behavior and facility practices. 23
                      State survey deficiency data are maintained in CMS’s Online Survey,
                      Certification, and Reporting (OSCAR) system. We obtained OSCAR
                      data for the national population of nursing homes for all standard
                      surveys conducted between January 1, 1999, and December 31, 2007.


                        Table 7. Scope and Severity Matrix for State Survey Deficiencies

                                                                                                        Deficiency Scope

                        Deficiency Severity                                           Isolated                           Pattern            Widespread
                        Actual or potential for
                        death or serious injury                                                J                                  K                 L
                        (immediate jeopardy)
                        Actual harm that is not
                                                                                               G                                  H                  I
                        immediate jeopardy
                        Potential for more than
                                                                                               D                                  E                 F
                        minimal harm
                        Potential for minimal
                        harm, substantial                                                      A                                  B                 C
                        compliance exists
                      Source: CMS, “State Operations Manual.”




                         22 Sections 1819(g) and 1919(g) of the Social Security Act.
                         23 CMS, “State Operations Manual,” section 7001. Available online at
                      http://www.cms.hhs.gov/manuals/downloads/som107c07.pdf. Accessed on June 20, 2008.



    OEI-06-06-00570   QUALITY   OF   CARE   IN   N U R S I N G H O M E S U N D E R C O R P O R AT E I N T E G R I T Y A G R E E M E N T S           40
A   P   P E N D       I X        ~          D


                      Selection of Deficiency Tags for Inclusion. For this analysis, we included
                      the 47 deficiency tags that CMS uses to determine whether a nursing
                      home is providing “substandard quality of care.” The deficiency tags
                      used are listed in Table 8.



                       Table 8: Quality of Care Survey Deficiency Tags Selected for Analysis

                                                              Resident Behavior and Facility Practices
                       42 CFR §                                                  F-Tag                                                       Deficiency
                       483.13(a)                                             F221, F222                                                        Restraints
                       483.13(b)                                                   F223                                                           Abuse
                       483.13(c)                                             F224, F226                                     Staff Treatment of Residents
                                                                                     Quality of Life
                       42 CFR §                                                  F-Tag                                                      Deficiency
                       483.15(a)                                                   F241                                                         Dignity
                       483.15(b)                                                   F242                          Self-Determination and Participation
                       483.15(c)                                             F243, F244                          Participation in Resident and Family
                                                                                                                                                Groups
                       483.15(d)                                         F245                                          Participation in Other Activities
                       483.15(e)                                   F246, F247                                               Accommodation of Needs
                       483.15(f)                                   F248, F249                                                                  Activities
                       483.15(g)                                   F250, F251                                                           Social Services
                       483.15(h)                       F252, F253, F254, F255,                                                            Environment
                                                             F256, F257, F258
                                                                       Quality of Care
                       42 CFR §                                         F-Tag                                      Deficiency
                       483.05                                            F309      Quality of Care Deficiencies Not Covered
                                                                                                          by § 483.25(a)–(m)
                       483.25(a)                             F310, F311, F312                        Activities of Daily Living
                       483.25(b)                                         F313                             Vision and Hearing
                       483.25(c)                                         F314                                 Pressure Sores
                       483.25(d)                                   F315, F316                           Urinary Incontinence
                       483.25(e)                                   F317, F318                                Range of Motion
                       483.25(f)                                   F319, F320          Mental and Psychosocial Functioning
                       483.25(g)                                   F321, F322                           Naso-Gastric Tubes
                       483.25(h)                                   F323, F324                                       Accidents
                       483.25(i)                                   F325, F326                                         Nutrition
                       483.25(j)                                         F327                                       Hydration
                       483.25(k)                                         F328                                  Special Needs
                       483.25(l)                                         F329                            Unnecessary Drugs
                       483.25(m)                                   F332, F333                               Medication Errors
                       483.25(n)                                         F334                  Influenza and Pneumococcal
                                                                                                               Immunizations
                       Source: “CMS State Operations Manual,” Appendix PP, “Guidance to Surveyors for Long Term Care
                       Facilities,” Rev. 26, August 17, 2007.

                      Analysis of survey deficiency data. We took the following steps to analyze
                      the survey deficiency data:

                            1. For each survey of each nursing home, we computed the total
                               number of deficiencies of a scope and severity of “D” or higher.
                               We did not include scope and severity levels “A” through “C”
                               because they are considered to be substantial compliance by
                               CMS.

    OEI-06-06-00570   QUALITY   OF   CARE   IN   N U R S I N G H O M E S U N D E R C O R P O R AT E I N T E G R I T Y A G R E E M E N T S             41
                A    P    P E N D             I X          ~          D


                                                      2. We computed the average number of deficiencies in each State
                                                         for each year from 1999 through 2007.

                                                      3. We created an index for each nursing home for each standard
                                                         survey that was computed as the number of deficiencies for the
                                                         survey divided by the average number of deficiencies for the
                                                         State for the year of the survey. 24 These deficiency index scores
                                                         for each corporation are presented in Table 9. The national
                                                         index score equals 1; therefore, scores above 1 indicate that the
                                                         corporation had more deficiencies than the average, and scores
                                                         lower than 1 indicate that the corporation had fewer than
                                                         average.


  Table 9: Index Scores for CIA Corporations for Quality of Care Deficiencies of Scope and Severity of D or
  Higher*
                                                               CIA Corporations
                       Number of
CIA Start   Term of      Nursing
Quarter          CIA      Homes          1999        2000        2001        2002                                        2003               2004                2005    2006         2007
Q2 2001      5 Years         251         1.11         1.15        1.23        1.19                                       1.10               1.14                 1.04    1.14        1.21
Q1 2002     5 Years          138         1.14         1.11        1.36        1.05                                       1.05               1.19                 1.05    1.03        1.11
Q2 2002     5 Years          185         1.03         1.05        1.17        1.15                                       1.20               1.13                 1.16    1.20        1.34
Q2 2004     3 Years          341         1.03         1.06        1.08        1.01                                       0.96               0.83                 0.83    0.89        1.12
Q2 2002     5 Years            52        1.17         1.36        1.12        1.08                                       1.05               1.11                 0.76    1.48        1.22
Q3 2003     5 Years            74        1.18         1.10        1.09        1.04                                       1.16               1.02                 1.20    1.66        1.38
Q4 2003     2 Years            26        0.99         0.77        1.03        1.22                                       1.14               0.94                 0.97    0.95        1.55
Q2 2000     5 Years             8        0.88         1.04        1.20        1.51                                       1.69               0.73                 0.88    1.33        0.77
Q1 2002     3 Years             9        0.68         1.90        1.36        1.09                                       1.45               1.30                 2.05    1.44        1.70
Q3 2003     5 Years             9        1.27         0.73        1.44        1.20                                       1.63               0.55                 0.83    2.20        0.78
Q4 2004     5 Years             7        0.35         0.96        0.37        1.02                                       1.58               1.74                 0.60    0.97        1.36
Q4 2001     5 Years             1        2.97         1.79        0.70        1.32                                       0.31               0.29                 2.16    2.97        1.79
Q4 2001     4 Years             1                     1.11        0.32        0.28                                       0.30               0.28                 1.03    0.23        1.11
Q4 2002     3 Years             1        1.09         3.61        0.96        1.95                                       1.41               1.55                 2.16    1.09
Q4 2005     3 Years             1        3.28         0.29        0.37        0.33                                       1.30               1.10                 1.35    0.65        3.28
*Shaded areas indicate the years during which the corporation was under the CIA.
Source: Office of Inspector General analysis of OSCAR quality of care deficiencies on standard surveys.




                                                  24 Prior Office of Inspector General (OIG) work found that there was variation across

                                                States in the number of deficiencies cited and that States differ in how they determine
                                                specific deficiency citations. Using same-State nursing homes as a denominator, rather
                                                than all nursing homes in the Nation, helped to account for any variation in surveyor
                                                practices across States and create a meaningful comparative index. OIG, “Deficiency
                                                Trends and Survey and Certification Process Consistency” (OEI-02-01-00600), March 2003.



                    OEI-06-06-00570             QUALITY   OF   CARE   IN   N U R S I N G H O M E S U N D E R C O R P O R AT E I N T E G R I T Y A G R E E M E N T S             42
Δ    A C K N O W L E D G M E N T S



                  This report was prepared under the direction of Kevin K. Golladay,
                  Regional Inspector General for Evaluation and Inspections in the Dallas
                  regional office, and A. Blaine Collins, Deputy Regional Inspector
                  General.

                  Susan M. Wolfe served as the team leader for this study. Other
                  principal Office of Evaluation and Inspections staff from the Dallas
                  regional office who contributed to the report include Amy Ashcraft,
                  Dustin Johnson, Sai Loganathan, Margaret Knight, and Dana
                  McClellan; other staff who contributed include Kevin Farber, Jennifer
                  Jones, Sandy Khoury, and Barbara Tedesco.




OEI-06-06-00570   QUALITY   OF   CARE   IN   N U R S I N G H O M E S U N D E R C O R P O R AT E I N T E G R I T Y A G R E E M E N T S   43
